  INTERNAL CONTROLS AND COMPLIANCE WITH LAWS AND
   REGULATIONS FOR THE DEFENSE COMMISSARY AGENCY
           FINANCIAL STATEMENTS FOR FY 1997



Report Number 98-158                           June 17, 1998




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, Home Page at WWW.DODIG.OSD.MIL.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8939
(DSN 664-8939) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 4249098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

DeCA                  Defense Commissary Agency
DFAS                  Defense Finance and Accounting Service
IG                    Inspector General
OMB                   Office of Management and Budget
SF                    Standard Form
SRD-1                 Standard Finance System Redesigned 1
STANFINS              Standard Finance System
                                     INSPECTORGENERAL
                                    DEPARTMENT   OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                    ARLINGTON, VIRGINIA 22202




                                                                          June 17, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               DIRECTOR, DEFENSE COMMISSARY AGENCY
               DIRECTOR; DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT:    Audit Report on Internal Controls and Compliance With Laws and
            Regulations for the Defense Commissary Agency Financial Statements for
            FY 1997 (Report No. 98-158)


        We are providing this audit report for review and comment. Financial
statement audits are required by the Chief Financial Officers Act of 1990 as amended
by the Federal Financial Management Act of 1994. On February 28, 1998, we issued
a disclaimer of opinion on the FYs 1997 and 1996 Financial Statements of the Defense
Commissary Agency. We identified internal control weaknesses and instances of
noncompliance with laws and regulations that merit management’s attention. Part I of
this report discusses material weaknesses in internal controls and noncompliance with
laws and regulations. Part II of this report contains relevant appendixes for
management use. We considered management comments on a draft of this report in
preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service did not comment on the draft of this
report. Therefore, we request that the Director, Defense Finance and Accounting
Service, provide comments on Recommendation 1 by July 17, 1998.

       We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Mr. David F. Vincent at (703) 604-9110
(DSN 664-91 lo), e-mail <DVincent@DODIG.OSD.MIL>              ; or Ms. Barbara A. Sauls
at (703) 604-9129 (DSN 664-9129), e-mail <BSauls@DODIG.OSD.MIL>.                See
Appendix G for the report distribution. A list of audit team members is on the inside
back cover.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                          Office of the Inspector General, DOD

Report No. 98-158                                                         June 17,199s
   (Project No. WI-I-2042.01)



              Internal Controls and Compliance With Laws and
               Regulations for the Defense Commissary Agency
                       Financial Statements for FY 1997


                                 Executive Summary

Introduction.   Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires an annual audit of the financial
statements of revolving funds such as the Defense Commissary Agency. Preparation of
the Defense Commissary Agency financial statements is the responsibility of the
Defense Finance and Accounting Service (DFAS). The Chief Financial Officers Act of
1990 prescribes the responsibility of management and auditors with respect to the
financial statements, internal controls, and compliance with laws and regulations.
Defense Commissary Agency management is responsible for establishing and
maintaining internal control and complying with laws and regulations. Although the
Defense Commissary Agency Consolidated Financial Statements for FYs 1997 and
1996 consisted of statements for Operations and Resale, we did not audit the Operations
statements. As of September 30, 1997, the Defense Commissary Agency Resale Stock
Fund reported assets of $429.8 million, liabilities of $374.9 million, and revenues of
$5.1 billion.

Audit Objectives. Our overall objective was to determine whether the Defense
Commissary Agency Consolidated Financial Statements for FYs 1997 and 1996 were
presented fairly and in accordance with Office of Management and Budget Bulletin
No. 94-01, “Form and Content of Agency Financial Statements,” November 16, 1993,
as modified by Office of Management and Budget Bulletin No. 97-01, “Form and
Content of Agency Financial Statements,” October 16, 1996. However, we limited
our scope to the Defense Commissary Agency Resale Stock Fund. Additional
objectives were to assess internal controls and compliance with laws and regulations as
they relate to the financial statements and to follow up on corrective actions resulting
from previous audits of the Defense Commissary Agency’s financial statements.

Disclaimer of Opinion. We were unable to render an opinion on the Defense
Commissary Agency Resale Stock Fund Consolidated Financial Statements for
FYs 1997 and 1996. We did not receive the financial statements in a timely manner;
therefore, we could not determine the accuracy and completeness of the data reported.
Also, we were unable to observe a physical inventory at any commissary because the
inventories were completed before we began audit work. Therefore, the scope of our
work was limited. For the work we performed on the FY 1997 Defense Commissary
Agency Resale Stock Fund Financial Statements, we identified significant deficiencies
in the accounting systems and the lack of sound internal controls prevented the
preparation of accurate financial statements. Our disclaimer of opinion was included in
the financial statements transmitted by the Under Secretary of Defense (Comptroller) to
the Office of Management and Budget.
Internal Controls. Internal controls for the FY. 1997 Financial Statements of the
Defense Commissary Agency Resale Stock Fund were not adequate. The DFAS
Columbus Center’s automated financial information systems created risks in the
preparation of financial statements for the Defense Commissary Agency and the
reconciliation of differences in deposits. Other reportable conditions existed in
inventory accountability and the recording and reporting of expenses. See Part I.A. for
the finding on deposit reconciliation and Appendix A for a discussion of management
controls.

Compliance with Laws and Regulations. Noncompliance with laws and regulations
continued to materially affect the reliability of the Defense Commissary Agency
Consolidated Financial Statements. Financial management systems and internal
controls did not completely or accurately disclose the financial condition of the
agency, as required by title 3 1, U.S. Code. Financial management systems did
not comply with Federal requirements for financial management systems; and the
U.S. Government Standard General Ledger at the transaction level as required by the
Federal Financial Management Improvement Act of 1996 and Office of Management
and Budget Bulletin No. 93-06, “Audit Requirements for Federal Financial
Statements,” January 8, 1993, as modified by Office of Management and Budget
Bulletin No. 98-04, “Addendum to OMB Bulletin No. 93-06,” January 16, 1998. The
Standard Finance System, a general ledger system, and the Standard Finance System
Redesigned 1, a disbursing system, did not provide reasonable assurance that Defense
Commissary Agency financial statements were reliable. Also, DFAS was not in
compliance with DOD Regulation 7000.14-R, the “DOD Financial Management
Regulation. n Specifically, DFAS excluded purchase discounts when recording
Accounts Payable. Part I.B. is our report on compliance with laws and regulations.
Appendix E lists the laws and regulations we reviewed.

Summary of Recommendations. We recommend that the Director, DFAS, consider,
when studying alternative accounting systems to support the Defense Commissary
Agency Resale function, a system that is compatible with the Defense Standard
Disbursing System and the Defense Joint Accounting System. Also, we recommend
that the Director, Defense Commissary Agency, clarify and standardize procedures for
forwarding bank information to the DFAS Columbus Center to expedite the
reconciliation of deposits.

Management Comments. The Director, Defense Commissary Agency, agreed to
clarify and standardize procedures for forwarding bank information to the DFAS
Columbus Center. See Part I for a discussion of management comments and Part III
for the complete text of management comments. The Director, DFAS, did not respond
to a draft of this report.

Audit Response. The comments from the Director, Defense Commissary Agency
were responsive. We request the Director, DFAS, provide comments in response to
the final report by July 17, 1998.




                                           ii
Table of Contents

Executive Summary                                                      i

Part   I - Audit Results
        Audit Background                                           2
        Audit Objectives                                           4

Part   LA. -Review of Internal Controls
        Introduction                                               6
        Reportable Conditions                                      7
        Reconciliation of Deposits                                11

Part   I.B. - Review of Compliance With Laws and Regulations

        Introduction                                              18
        Reportable Noncompliances                                 18

Part   II - Additional Information

        Appendix A. Audit Process
                    Scope
                    Methodology                                   ;:
                    Management Control Program                    27
        AppendixB. Prior Audit Reports                            29
        Appendix C. Principal Statements and Footnotes
        Appendix D. Audit Opinion
        Appendix E. Management and Legal Representation Letters
        Appendix F. Laws and Regulations Reviewed
        Appendix G. Report Distribution


Part III - Management Comments

        Defense Commissary Agency Comments                        41
Part I - Audit Results
Audit Background
    Introduction.    Public Law 101-576, the “Chief Financial Officers Act of
    1990,” as amended by Public Law 103-356, the “Federal Financial
    Management Act of 1994,” October 13, 1994, requires financial statement
    audits of agencies such as the Defense Commissary Agency (DeCA) by the
    Inspector General (IG) and prescribes the responsibilities of management and
    auditors for the financial statements, internal controls, and compliance with laws
    and regulations. The Director, DeCA, is responsible for establishing and
    maintaining internal controls and for complying with laws and regulations
    applicable to DOD. Our responsibility is to render an opinion on those
    statements based on our work, and to determine whether internal controls were
    adequate and whether DeCA complied with laws and regulations. Appendix A
    discusses the scope and methodology, auditing standards, and accounting
    principles applicable to this audit. Appendix A also discusses our review of the
    FY 1997 Financial Statements of the DeCA Resale Stock Fund.

    DeCA is responsible for the information in the DeCA Resale Stock Fund
    Financial Statements. The Statement of Financial Position and the Statement of
    Operations show the work of the DeCA Resale Stock Fund by comparing its
    assets, liabilities, revenues, and expenses as of the end of FY 1997. The
    following table identifies the major accounts reported on the FY 1997 Financial
    Statements of the DeCA Resale Stock Fund.



                Major Accounts of the     D&A Resale Stock Fund as of
                                  September    30,1997
                                        (millions)
           Asset Accounts                                    Balance
           Fund Balance With Treasury                        ($148.8)
              Funds Collected                               $5,030.6
              Funds Disbursed                              ($5,179.4)
           Inventory Held for Sale, Net                       $328.0
           Liabilitv Accounts
           Accounts Payable (Governmental)                    $319.2
           Revenue Accounts
           Revenue From Sales of Goods and Services         $5,097.5
           Expense Account
            Cost of Goods Sold                              $5,141.7
                                                    I


     Accounting Functions and Responsibiities. The Defense Finance and
     Accounting Service (DFAS) Columbus Center performs accounting functions
     and prepares financial statements for DeCA. The DFAS Columbus Center

                                          2
operates under the control and direction of Headquarters, DFAS. Headquarters,
DFAS and the DFAS Columbus Center jointly prepare the DeCA Financial
Statements. The DFAS Columbus Center is responsible for entering
information from DOD entities into the financial systems, operating and
maintaining the fmancial systems, and ensuring the continued integrity of the
information entered. DeCA is responsible for providing accurate financial
information to DFAS Columbus Center.

Accounting Policies. ‘Ihe DeCA Resale Stock Fund Financial Statements for
FYs 1997 and 1996 were to be prepared in accordance with the Office of
Management and Budget (OMB) Bulletin No. 94-01, “Form and Content of
Agency Financial Statements, n November 16, 1993, as amended by OMB
Bulletin No. 97-01, “Form and Content of Agency Financial Statements,”
October 16,1996. Footnote 1 of the DeCA Resale Stock Fund FY 1997
financial statements discusses the significant accounting principles used to
prepare the fmancial statements. See Appendix A for a more detailed discussion
of accounting principles.

Diiier       of Opinion. We were unable to render an opinion on the DeCA
Consolidated Financial Statements for FYs 1997 and 1996. The Defense
Commissary Agency Consolidated Financial Statements consisted of statements
for Operations and Resale Stock Fund. We did not audit the f5utncia.l
statements for Operations. In addition, we did not receive the financial
statements in a timely manner; therefore, we could not determine the accuracy
and completeness of the data reported. Also, we were unable to observe a
physical inventory at any commissary because the inventories were completed
before we began audit work. Therefore, the scope of our work was limited.
For the work we performed on the FY 1997 DeCA Resale Stock Fund Financial
Statements, we found that significant deficiencies in the accounting systems and
the lack of sound internal control prevented the preparation of accurate financial
statements. Our disclaimer of opinion was included in the DeCA FY 1997
Financial Statements. Our final report will include the DeCA Financial
Statements and our disclaimer of opinion.

Working Capital Fhd. A working capital fund is a revolving fund that
operates as an accounting entity. Each working capital fund has business areas
or activity groups, such as DeCA Resale Stock Fund, that finance the
purchase of inventory for resale items to be sold to commissary patrons. The
DeCA Resale Stock Fund is a major business area of the DeCA Working
Capital Fund, and requires no support from appropriated funds. Before
FY 1992, DOD operated a number of commercial and industrial facilities under
a revolving fund concept. In FY 1992, the revolving funds were consolidated
to form the Defense Business Operations Fund. The IG, DOD, was responsible
for auditing and rendering an opinion on the consolidated financial statements
     of the Defense Business Operations Fund. In December 1996, the Under
     Secretary of Defense (Comptroller) restructured the Defense Business
     Operations Fund into separate working capital funds.


Audit Objectives
     Our overall objective was to determine whether the DeCA Consolidated
     Financial Statements for FYs 1997 and 1996 were prepared in accordance with
     OMB Bulletin No. 94-01, as amended by OMB Bulletin No. 97-01. Our scope
     was limited to the FY 1997 DeCA Resale Stock Fund. We also evaluated
     internal controls and compliance with laws and regulations as they related to the
     financial statements and followed up on corrective actions resulting from
     previous audits of the DeCA financial statements.




                                          4
Part I.   A.   - Review of Internal Controls
Review of Internal Controls




Introduction
      Audit Req~~n&biitles. Our audit objective was to determine whether controls
      over transactions supporting the Inventory, Accounts Payable, and Revenue
      accounts in the FY 1997 Financial Statements of the DeCA Resale Stock Fund
      were adequate to ensure that the accounts were free of material error. In
      planning and performing our work, we evaluated internal controls at DeCA and
      DFAS Columbus Center. We performed this evaluation to:

              l    determine the auditing procedures necessary to render an opinion on
                   the financial statements, and

              l    determine whether internal controls had been established and placed
                   in operation.

      Management       Reqmsibiii.        As the Chief Financial Officer, the Under
       Secretary of Defense (Comptroller) oversees all financial management activities
       for DOD programs and operations, including the accounting functions of DFAS.
       DeCA is responsible for managing its operations. Establishing and maintaining
       internal controls appropriate to,the entity is an important responsibility of DeCA
       management. The objectives of internal controls are to provide management
       with reasonable, but not absolute, assurance that:

               l   transactions are proper1 recorded and accounted for to permit the
                   preparation of reliable znan cial statements and to maintain
                   accountability over assets;

               l   funds, property, and other assets are safeguarded against waste, loss,
                   unauthorized use, and misappropriation; and

               l   transactions, including those related to obligations and costs, are
                   executed in compliance with laws and regulations that could have a
                   direct and material effect on the financial statements, and with any
                   laws and regulations that OMB, DOD, or the IG, DOD, have
                   identified as being significant and for which compliance can be
                   objectively measured and evaluated.

       Appendix D includes management and legal representation letters from DeCA.

       InternaI Control Elements. The purpose of our review of internal controls
       was not to render an opinion on the financial statements. The three elements of
       internal controls are the control environment, accounting and related systems,
       and control procedures. The control environment is the collective effect of
       various factors on establishing, enhancing, or mitigating the effectiveness of
       specific policies and procedures. Such factors include management’s
       philosophy and operating style, the entity’s organizational structure, and
       personnel policies and practices. The control environment reflects the overall
       attitude, awareness, and actions of management concerning the importance of


                                             6
                                                     Review of Internal Controls


     controls and the emphasis placed on them by the entity. Accounting and related
     systems are the methods and records established to identify, assemble, analyze,
     classify, record, and report on the entity’s transactions and to maintain
     accountability for the related assets and liabilities. Control procedures are the
     policies and procedures, in addition to the control environment and the
     accounting and related systems, that management has established to provide
     reasonable assurance that specific objectives will be achieved.



Reportable Conditions
    Reportable conditions are matters coming to our attention relating to significant
    deficiencies in the design or operation of internal controls that, in our judgment,
    could adversely affect the organization’s ability to effectively control and
    manage its resources and to ensure the preparation of reliable and accurate
    financial information for use in managing and evaluating operational
    performance. A material weakness is a reportable condition in which the design
    or operation of internal controls does not reduce to a relatively low level the risk
    that errors or irregularities could occur. Such errors or irregularities would be
    in amounts that would be material to the statements being audited, and would
    not be detected in a timely manner by employees in the normal course of
    performing their functions.

     Our consideration of internal controls would not necessarily disclose all
     reportable conditions, and would not necessarily disclose all reportable
     conditions that are considered to be material weaknesses.

    Reportable Condition for DeCA. Internal controls for the FY 1997 Financial
    Statement of the DeCA Resale Stock Fund were not adequate. Specifically,
    internal controls for the accounting systems did not provide reasonable
    assurance that financial information was reliable. other reportable conditions
    existed in reconciliation of cash sales, Fund Balance With Treasury, inventory
    accountability, the recording and reporting of expenses, and reconciliation of
    deposits.

    Management     Acknowledgment of Reportable Conditions. The DFAS Annual
    Statement of Assurance for FY 1997 addressed an uncorrected material control
    weakness for the Standard Finance System Redesign 1 (SRD-1) disbursing
    system, which is a subsystem of the Standard Finance System (STANFINS) for
    generating disbursement data and the Statement of Accountability, Standard
    Form (SF) 1219. DFAS acknowledged that its SRD-1 disbursing system is
    deficient because of discrepancies in the reporting of checks issued. Also,
    DeCA noted in its management representation, “Management Assurance
    Concerning FY 1997 Defense Commissary Agency Working Capital Fund
    Financial Statements,” February 27, 1998, (Appendix D) that collection
    information was reported to the Department of the Treasury incorrectly as
    reverse disbursements.



                                         7
Review of In@-nal Controls


      Accounting Systems. The U.S. Government Standard General Ledger had not
      been implemented for STANPJNS. Also, STANFJNS was noncompliant in 5 of
      the 13 DOD key accounting requirements, including prope         and inventory
      accountability and cost accounting. SRD-1 did not have su%i cient edit checks to
      ensure the timely processing of disbursement data, which affected the Fund
      Balance With Treasury, Accounts Receivable, and Accounts Payable accounts.
      DFAS does not plan to modify STANFJNS and SRD-1 to make them comply
      with the Chief Financial Officers Act. Instead, DFAS plans to replace
      STANFJNS and SRD-1 with DOD standard systems. The DFAS Indianapolis
      Center will replace STANFJNS with the Defense Joint Accounting System.
      DFAS plans to include STANFJNS in its analysis of alternative systems to
      support the resale accounting function required by DeCA at the DFAS
      Columbus Center. DFAS plans to replace the SRD-1 disbursing system with
      the Defense Standard Disbursement System in November 2000; the system
      should be fully operational April 2001. The replacement systems should correct
      the deficiencies noted above. Until STANFINS and SRD-1 are replaced, the
      ability to produce auditable financial statements will continue to be at risk.

      Reconciliation of Cash Sales. Because of several impediments, the Sales
      Branch, DFAS Columbus Center, was not always able to promptly reconcile
      unmatched sales and collection transactions reported on the Cash Sales
      Reconciliation Report, STANPJNS AVK-963 Report. Examples of these
      impediments were electronic media initiatives, such as patron credit and debit
      cards; discrepancies between store and bank totals; errors in entering data into
      the Automated System for Army Commissaries and SRD-1; and untimely flow
      of Reports of Deposit (DD Forms 707) from the DeCA Accounts Control
      Section to the DFAS Columbus Center.

      The AVK-963 Analysis Report, which is a monthly management report
      manually computed by Sales Branch personnel, identified open line items (items
      with a net difference between sales and collections) over 30 days old. The
      report is generated using the AVK-963 Report, which is automatically produced
      by STANFJNS at month’s end. The Am-963 Report is a cumulative report
      that holds unmatched items until the appropriate sales or collection action is
      input. The net value of the September 30, 1997, AVK-963 Analysis Report had
      3,500 open lines with an actual value of $4.8 million. Of the total net value,
      $2 million represented unmatched sales and collections over 60 days old
      (excluding September 1997) that either had not been processed or had been
      incorrectly posted to STANFJNS, through SRD- 1. The Disbursing Office may
      not receive the DD Forms 707 from the Accounts Control Section until 60 days
      after the original date of the sale, and the collection is not entered into
      STANFJNS through SRD-1 until the funds are received. Also, if the DD Form
      707 is received but is not in balance, the collection is not entered until the
      DD Form 707 is corrected. As a result, the account balances of Sales and
      Funds Collected as of September 30, 1997, may not have been accurate for
      financial reporting purposes.

              Unmatched Cash Sales and Collections. Cash sales and collections
      may fail to match because of incorrect document numbers, erroneous posting of
      sales and collections data, missing DD Forms 707 from commissaries, duplicate

                                           8
                                                Review of Internal Controls


debit card transactions using the Point-of-Sale Modernization cash register, and
discrepancies between store and bank totals. Unmatched sales or collections
items caused by erroneous document numbers or store codes are matched and
corrected within the Sales Branch, DFAS Columbus Center, through a
“document move. n These errors do not directly affect the Sales or Funds
Collected account balances. However, the financial reporting of sales and
collections is affected by discrepancies between sales and collections caused by
bank and store discrepancies, point-of-sale adjustments, deposit or collectron
adjustments, and missing documentation for DD Forms 707. These,
discrepancies require corrections to the Sales or Funds Collected general ledger
accounts to bring sales and collections into alignment.
        Af’feet on DeCA Fiincial Reports. Unmatch.ed sales and collections
transactions in the AVK-963 Report affect the Sales account balance (general
ledger account 5100) and the Funds Collected account balance (general ledger
account 1011.1T) in STANFJNS. Errors or unmatched items in the
“collection” column on the AVK-963 Report, that have been properly
researched and reconciled, are reported to the Disbursing Office to correct the
STANFINS through SRD-1. Errors or unmatched items in the “sales” column
on the AVK-963 Report are reported to the DeCA Analysis and Reconciliation
Business Unit to correct STANFJNS through the DeCA Interim Business
System and the Automated System for Army Commissaries.

       Request for Wri+Off      of Aged Unmatched     Transactions.   On
October 20, 1997, the DFAS Columbus Center, in a memorandum to the
Director of Resource Management, DeCA, requested authority to write off a
negative amount of $7,690.21 (net). This net amount represents unmatched
sales and collections transactions prior to January 1, 1997, largely caused by
implementation of the Point-of-Sale Modernization cash register and store and
bank total adjustments. DeCA is addressing problems with the implementation
of the Point-of Sale Modernization cash register and with balancing store and
bank deposit totals.

Fund Balance With Treasury.       The SRD-1 disbursement system accepts
duplicate transactions involving deposit tickets and debit vouchers. These
deficiencies affected the accuracy and timeliness of processing and reconciling
financial data for the DeCA Fund Balance With Treasury account (collections
and disbursements).

The timely and accurate processing of disbursement data is critical to the
Disbursing Office’s accountability for the DeCA Resale Stock Fund (Disbursing
Station Symbol Number 6355). If the disbursing data are not reconciled within
6 months, the Department of the Treasury charges or credits the amount of the
deposit ticket or debit voucher to the Budget Clearing Account, F3878, in the
7th month. As of September 30, 1997, the net balance for F3878 was negative
$1 million. Although this amount represents only seven-tenths of 1 percent of
the net balance in Fund Balance With Treasury, which is a negative
$148.8 million, improvements are needed in reconciling differences between



                                     9
Review of Internal   Controls


       deposits. The DFAS Columbus Center made a request in March 1995 to
       include edit checks for month and year of transaction and deposit code. See the
       tinding on Reconciliation of Deposits for a discussion of this issue.

       Inventory Accountability.     According to the DeCA FY 1997 Annual Statement
       of Assurance, commissary inventory losses increased during FY 1997. DeCA
       commissaries are required to operate departmental accounts within variances
       established in DeCA Directive 40-21(C2), “Subsistence Accountability
       Inventory Procedure, n July 15,1995. At the corporate level, DeCA is required
       to operate within an established plus or minus percent variance. Overall, DeCA
       is within the allowable variance. However, within the Continental U.S., DeCA
       losses for all departments increased from 0.61 percent ($28,215,404) in
       FY 1996 to 0.72 percent ($31,685,821) in FY 1997. Also, within the
       Continental U. S . , the number of departments outside the allowable tolerance
       increased from 90 out of 634 in FY 1996 to 110 out of 634 in FY 1997.

       Recording and Reporting Expenses. IG, DOD, Report No. 97-223,
       “Recording and Reporting Expenses of the Defense Commissary Agency,”
       September 30, 1997, stated that expenses of the DeCA Resale Stock Fund were
       overstated by $15.6 million on the FY 1996 Statement of operations. This
       occurred because the DFAS Columbus Center did not properly account for and
       report discounts earned on purchases. DeCA policy requires that discounts
       earned on purchases be transferred to the Commissary Surcharge Collections
       Fund. The DFAS Columbus Center initially recorded discounts in the Cost of
       Goods Sold - Inventory Gains - Discounts Earned for DeCA Resale.
       Approximately every 2 weeks, DeCA transferred the amount of the discounts to
       a suspense account. The Cost of Goods Sold - Inventory Gains - Discounts
       Earned was then adjusted to a zero balance. Consequently, the Cost of Goods
       Sold Account for DeCA Resale was not reduced by the amount of discounts
       earned on purchases.

       DFAS initially nonconcurred with the IG, DOD, recommendation to use
       discounts earned in the calculation of Cost of Goods Sold. However, in
       subsequent meetings DFAS and the Under Secretary of Defense (Comptroller),
       Accounting Policy Directorate, have resolved this matter.




                                          10
            Reconciliation of Deposits
            The DFAS Columbus Center did not always reconcile deposit
            differences on the Analysis of Unmatched Transaction Listing for the
            DeCA Resale Stock Fund in a timely manner. The September 1997
            listing (excluding open lines less than 30 days old), identified a net
            cumulative balance of unmatched deposits totaling $0.7 million.
            zns&;a;rt            reconciled in a _tim$ manner because the process for
                              researchmg deposit Q d erences was duplrcatrve and
            ineffective. Although the Directorate of Stock Fund Accounting, DFAS
            Columbus Center, began taking corrective action, there is a continued
            risk that deposit differences will not be reconciled before the required
            reporting date for DOD-wide financial statements. As a result, the
            financial statements may be inaccurate. In addition, DeCA managers
            risk overspending or overobligating if they do not have current and
            accurate information in their Fund Balance With Treasury accounts.



Procedures for Reconciling Deposits
     Treasury Financial Manual 2-3100, “Instructions for Disbursing OfIicers’
     Reports,” April 1, 1997, and DOD 7000.14-R, DOD Financial Management
     Regulation, volume 5, chapter 5, “Disbursing Policies and Procedures,”
     May 1996, state that the Disbursing Office is responsible for researching and
     reconciling differences in deposits. Unmatched deposits are the result of
     differences between deposits recorded by the Department of the Treasury, as
     reported by the Financial Management Service through the banking system
     (CA$HLINK), and the deposits recorded by the Disbursing Office, as reported
     to the Department of the Treasury on the monthly Statement of Accountability,
     SF 1219. The Department of the Treasury compares the Statement of
     Accountability with CA$HLINK bank totals for each Disbursing Office and
     prepares a Statement of Differences-Deposit Transactions (SF 6652). The
     SF 6652 is forwarded to the DFAS Indianapolis Center monthly. The DFAS
     Indianapolis Center prepares a monthly Analysis of Unmatched Transaction
     Listing for DeCA and electronically transmits the differences to the DeCA
     Accounting Division, DFAS Columbus Center, the following month.

     The Analysis of Unmatched Transaction Listing incorporates all unmatched
     transactions that are currently open (approximately the first six months).
     Correcting the errors shown on the Analysis of Unmatched Transaction Listing
     would prevent the Disbursing Office from receiving chargebacks to Budget
     Clearing Account F3878, from the Department of the Treasury. Chargebacks
     are unmatched “S’ (Statement of Accountability) and “T” (Treasury) lines with
     voucher dates older than 6 months for amounts less than $5 million.
     Differences exceeding $5 million remain on the SF 6652 until cleared by the
     Disbursing Office.




                                        11
Reconciliation   of Ihmosits

       Responsibility   for Reconciling Deposits. The assignment of responsibility for
        reconciling differences in deposits was divided between three functional areas at
        the DFAS Columbus Center, located in two buildings, and the reconciliation
        process was not well coordinated between these functional areas. Also, because
        SRD-1 did not have the necessary edit checks, accounting technicians in the
        DeCA Reports Control Section, DFAS Columbus Center, were responsible for
        reentering deposit tickets and debit vouchers into a separate Statement of
        Accountability database to detect duplicate deposits and debits and erroneous
        voucher dates entered in SRD-1.

                Process for Reconciling Deposits. The process for reconciling deposit
        differences was duplicative and ineffective and resulted in a negative $1 million
        (net cumulative) in chargebacks to account F3878. Although that amount
        represents only seven-tenths of 1 percent of the FY 1997 net account balance for
        the DeCA Fund Balance With Treasury (negative $148.8 million); according to
        the Department of the Treasury, the desired balance in account F3878 is zero.

        The deposit reconciliation process at the DFAS Columbus Center started in the
        Disbursing Office. Accounting technicians reconciled the DD Forms 707
        (Reports of Deposit), deposit tickets, and debit vouchers, which they received
        on a daily basis from commissaries, to ensure that the amounts agreed. To
        detect duplicate deposit and debit entries posted in SRD-1, accounting
        technicians in the DeCA Reports Control Section, DFAS Columbus Center,
        reentered the deposits and debits into the Statement of Accountability database.
        When the documents were in agreement, the technicians input the DD Forms
        707 into SRD-1, producing the collection voucher. The collection voucher
        updated the general ledger account 1011. lT, “Funds Collected, ” in STANFINS.
        For deposits and debits that did not agree with CA$HLINK, the technicians
        researched the differences by requesting documentation from the applicable
        banks and commissaries.

        Deposit differences that were not resolved by the Disbursing Office within
        3 months were transferred to financial specialists in the DeCA Reports Analysis
        Section, DFAS Columbus Center, who were responsible for monitoring the
        Analysis of Unmatched Transaction Listing. The Gnancial specialists performed
        further research and resolution of the differences by checking CA$HLINK and
        contacting the banks and commissaries. Deposit differences that could not be
        reconciled were charged back to DeCA Resale Stock Fund if outstanding for
        6 months. Accounting technicians and financial specialists in the DeCA Reports
        Analysis Section, who were responsible for monitoring chargebacks, researched
        and reconciled the chargeback transactions. As of September 30, 1997, the net
        cumulative balance of unmatched deposits was $121.7 million, including 5,800
        October 1997 line items totaling $120.1 million, that were less than 30 days
        old.




                                            12
                                                               .. .
                                                        Reconcrlu~tro n of DeDosi@


Efforts to Improve the Process for Reconciling Deposits. Effective in
March 1998, the DFAS Columbus Center transferred the responsibility for
fesearching and reconciling unmatched differences in deposits and chargeback
transactions from the Reports Analysis Section to the Disbursing Office, DFAS
Columbus Center. This realignment:

           allows management to develop and implement procedures to improve
           the work flow and decrease the number of items on the Analysis of
           Unmatched Transaction Listing,

           centmlizes communication among employees involved in the process
           of reconciling commissary transactions (verifying data through
           CA$HLINK and contacting banks and commissaries), and

           assists management in identifying problem areas and determining the
           most effective means of eliminating items on the Analysis of
           Unmatched Transaction Listing.

DFAS Columbus Center’s Audit of the Deposit Reconciliation Process.
The Office of Internal Review, DFAS Columbus Center, issued Report
No. 97-A-670-UA-003, “The DFAS-Wide Audit of the Disbursing Office
Deposit Reconciliation Process,” on January 28,1998. The auditors reported
that more aggressive action was needed to clear deposits-in-transit to prevent
deposits from being charged back to account F3878. The Office of Internal
Review recommended that the DFAS Columbus Center establish a goal of
eliminating all chargebacks to account F3878 and perform a trend analysis of
commissary records of deposits-in-transit to identify at least five commissaries
that have a large number of chargebacks. Management agreed to establish a
goal of eliminating chargebacks, but preferred to delay identifying the five
commissaries until a Pareto analysis’ is completed.

Further Improvements Needed. Although transferring the responsibility of
unmatched and chargeback deposits will minimize duplication of effort and
make the reconciliation process more efficient, further improvements are
needed. Specifically, DeCA needs to improve its procedures for forwarding
deposit and debit information to the DFAS Columbus Center to ensure the
timely and accurate posting of disbursement data to SRD-1. Timely and
accurate disbursement data are critical to the Disbursing Office’s accountability
for the DeCA Resale Stock Fund, as reported on the monthly Statement of
Accountability, SF 1219. Managers risk overspending or overobligating if they
do not have current and accurate information on their Fund Balance With
Treasury accounts, which are reported on the SF 1219.


‘The Pareto Method of Quality Improvement involves determikg         the source or sources and
  cause or causes that create a major part of the quality program. Experience has shown that, in
  many instant,    a relatively small percentage (20 percent) of persons or machines or sources
  accotmts for a large percentage (80 percent) of the quality problem.




                                          13
      ..   .           .
Recon~n        of Dem@s


     Also, when studying alternative accounting systems for the DeCA Resale Stock
     Fund business area, Headquarters, DFAS, should consider a system that is
     compatible with the Defense Standard Disbursing System and the Defense Joint
     Accounting System. This will minimize problems between the systems and
     improve the deposit reconciliation process.



Conclusion
      Until DFAS Columbus Center remedies the lack of edit checks in SRD-1,
      differences in deposits may not be reconciled before the required reporting date
      for the DOD-wide financial statements. The Defense Standard Disbursing
      System, which is scheduled for implementation in November 2000 through
      April 2001, should correct the deficiencies in SRD-1. Until the new system is
      implemented, the Reports Control Section, DFAS Columbus Center, plans to
      continue entering into the Statement of Accountability database the deposit
      tickets and debit vouchers that the Disbursing Office has processed in SRD- 1, in
      order to detect duplicate entries and erroneous transaction dates.

      DeCA procedures for forwarding deposit and debit information to the DFAS
      Columbus Center need to be clarified and standardized to minimize differences
      in deposits and expedite the reconciliation of deposits.


Recommendations and Requirements for Management
Comments
      1. We recommend that the Director, Defense Finance and Accounting
      Service, cousider, in studying alternative accounting systems for the
      Defensecommhsary Agency Resale Stock Fund, a system that is
      compatible with the Defense Staudard Disbursing System aud the Defense
      Joint Accounting System.

      Mauagement Comments Required. The Director, Defense Finance and
      Accounting Service, did not comment on a draft of this report. We request the
      Director provide comments on this report.

      2. We recommend that the Diior,       Defense Commisary Agency, clarify
      aud standardize procedures related to forwarding deposit and debit
      information to the Defeuse Fiuauce and Accounting Service Columbus
      Center iu order to expedite the reconciliation of deposits between
      commissaries and the Defense Fiuance aud Accounting Service Columbus
      Center.




                                          14
                                             Reconciliation of Dewsi@


Management Comments. The Director, Defense Commissary Agency,
concurred and will clarify procedures related to forwarding deposit and debit
information in the Defense Commissary Agent Directive 70-6. The target date
for revising the directive is September 30, 199H.




                                 15
Part I. B. - Review of Compliance   With
Laws and Regulations
Review of Comnliance   With Laws and Regulations



Introduction
      We audited the DeCA Resale Stock Fund Financial Statements for material
      instances of noncompliance with laws and regulations for FY 1997. Our
      objective was to assess compliance with laws and regulations for transactions
      and events that could have a direct and material effect on the DeCA Resale
      Stock Fund Financial Statements. Such tests are required by the Chief Financial
      Officers Act of 1990, as amended by the Federal Financial Management Act of
       1994. We reviewed compliance with laws and regulations, not to render an
      opinion on overall compliance with such provisions, but to obtain reasonable
      assurance that the financial statements were free of material misstatements.
      Since DeCA was established on October 1,1991, the agency has made
      improvements in documenting its policies and procedures. See Appendix E for
      a list of the laws and regulations we reviewed.


Reportable Noncompliances
      Material instances of noncompliance are failures to follow requirements, laws,
      or regulations that would cause us to conclude that the aggregation of the
      misstatements resulting from those failures is either material to the financial
      statements, or that the sensitivity of the matter would cause others to perceive it
      as significant.

      Title 31, U.S. Code (U.S.C.) 501, Thief Fihuxial Officers Act of 1990.”
      The Chief Financial Officers Act of 1990, as amended by the Federal Financial
      Management Act of 1994, requires DOD to prepare agency-wide audited
      financial statements and submit them to OMB no later than March 1, 1998.
      DOD did not prepare and issue financial statements for FY 1997 in time for the
      auditors to render an opinion on the financial statements. The statements were
      late and unauditable primarily because DOD had inadequate accounting systems
      and control procedures. The untimely preparation of the DeCA FY 1997
      Financial Statements and deficiencies in accounting systems and control
      procedures were reasons we were unable to render an opinion on those financial
      statements. Those deficiencies prevented DeCA from completely and accurately
      disclosing timely financial results; obtaining the financial information needed
      for managing; and using accountmg results to prepare and support budget
      requests and control its budget.

       Tfg,wU.S.C.     3512, “Federal Fii     Management Improvement               Act
                  On September 9,1997, OMB issued a memorandum,
       “Implementation Guidance for the Federal Financial Management Improvement
       Act (FFMIA) of 1996.” The Federal Financial Management Improvement Act
       requires Federal agencies to implement and maintain financial management
       systems that comply substantially with Federal requirements for financial
       management systems, applicable Federal accounting standards, and the U.S.
       Government Standard General Ledger at the transaction level. The Federal
       Financial Management Improvement Act also requires that the IG, DoD, report


                                           18
                           Review of Com&xnce With Laws and Rermlations

on agency compliance with Federal requirements and accounting standards, and
the U.S. Government Standard General Ledger. These requirements are
established in the following documents.

       l   OMB Circular No. A-127, “Financial Management Systems,”
           July 23, 1993, establishes Government policy for developing,
           evaluating, and reporting on financial management systems. It
           requires financial management systems to provide complete, reliable,
           consistent, timely, and useful information. To achieve this goal,
           DOD and other Federal agencies must establish and maintain a single,
           integrated financial management system that uses the U.S.
           Government Standard General Ledger. DOD financial management
           systems did not comply with the requirements of OMB Circular
           No. A-127. DOD used multiple, nonintegrated financial systems that
           did not contain the U.S. Government Standard General Ledger.
           Although DOD had its own general ledger, that ledger did not control
           all financial transactions and balances and was not the only source of
           information for financial reports.

       l   OMB Circular No. A-134, “Financial Accounting Principles and
           Standards,” May 20, 1993, establishes policies and procedures for
           approving and publishing financial accounting principles and
           standards. It also establishes the policies that Executive agencies and
           OMB are to follow in seeking and providing interpretations and other
           advice related to the standards.

       l   Joint Financial Management Improvement Program Federal Financial
           Management System Requirements is a cooperative undertaking of the
           OMB, the Department of the Treasury, and the Office of Personnel
           Management, working with each other and with Federal agencies to
           improve financial management practices throughout the Government.
           The Joint Financial Management Improvement Program has published
           a series of “Federal Financial Management System Requirements. n

       l   The “Core Financial System Requirements,” September 1995, which
           are part of the Joint Financial Management Improvement Program’s
           “Federal Financial Management System Requirements, n establish
           standard requirements for the foundation modules of an agency’s
           integrated financial management system. These requirements state
           that a financial management system must support the partnership
           between program and financial managers and assure the integrity of
           information for decision making and performance measures.

As part of our audit to obtain reasonable assurance about whether the FY 1997
DeCA Financial Statements were free of material misstatement, we performed
limited tests of their compliance with certain provisions of laws and regulations
when noncompliance could have a direct and material effect on the
determination of amounts in the financial statements. We also tested
compliance with certain other laws and regulations specified in OMB Bulletin
No. 9346, “Audit Requirements for Federal Financial Statements,” January 8,
1993, modified by OMB Bulletin No. 98-04, “Addendum to OMB Bulletin
No. 93-06,” January 16, 1998. In planning and performing our tests of

                                     19
Review of ComDiiauce With Laws and Rermlations

   compliance, we considered the implementation guidance issued by OMR
   on September 9, 1997, relating to the Federal Financial Management
   Improvement Act.

   The financial management systems that support the FY 1997 DeCA Financial
   Statements of the DeCA Resale Stock Fund were not in substantial compliance
   with the requirements of the Federal Financial Management Improvement Act.
   The DOD financial management systems comprise multiple finance, accounting,
   and feeder systems that are the responsibility of DFAS and DeCA. DFAS
   financial management systems were unable to produce auditable and timely
   financial statements for FY 1997 primarily because the accounting and related
   systems were not designed for financial reporting. The financial condition of
   DeCA and its operating results for FY 1997 were not verifiable, and DeCA had
   no assurance that it was properly managing its resources.

   Reportable Noncompliance. Accounting systems and internal controls did not
   completely or accurately disclose the financial condition of DeCA, as required
   by 3 1 U.S.C. Under the “Federal Financial Management Improvement Act of
   1996” and OMB Bulletin No. 98-04. The financial management systems did
   not comply with Federal requirements for financial management systems (OMB
   Circular No. A-127) and the U.S. Government Standard General Ledger at the
   transaction level.

   The financial management systems that supported the FY 1997 Financial
   Statements of the DeCA Resale Stock Fund, were not in compliance with the
   requirements of the “Federal Financial Management Improvement Act of 1996”
   or OMB Circular No. A-127, “Financial Management Systems,” July 23, 1993.
   DFAS financial management systems were unable to produce auditable financial
   statements for FY 1997. According to the System Manager/User Review
   Certification Statement for FYs 1997 and 1996, STANFINS is noncompliant in
   5 of the 13 DOD key accounting requirements, including system controls,
   property and inventory accountability, and cost accounting.

   The DeCA management representation, “Management Assurance Concerning
   FY 1997 Defense Commissary Agency Working Capital Fund Financial
   Statements,” February 27, 1998, stated that collection information was reported
   to the Department of the Treasury incorrectly as reverse disbursements. The
   DFAS Columbus Center submitted unsupported monthly adjustments to the
   Department of the Treasury through the Data Element Management/Accounting
   Reporting System, and $30 million in undistributed disbursements was
   transferred from the Defense Working Capital Fund Corporate account to the
   Fund Balance With Treasury account. As a result, the Fund Balance With
   Treasury account could not be validated.

   The SRD-1 disbursement system accepted duplicate deposit and debit
   transactions. To prevent duplicate transactions, the SRD-1 system required edit
   checks to verify the month and year of transaction and the deposit code. These
   deficiencies affected the accuracy and timeliness of processing and reconciling




                                      20
                         Review of ComDliance With Laws and Real&ions

financial data on collections and disbursements for the DeCA Fund Balance
With Treasury account. The finding in Part I.A. discusses deficiencies in
SRD-1.

DFAS, the preparer of the DeCA financial statements, continued to be in
noncompliance with regulations. The DFAS Columbus Center reported
Accounts Payable for the DeCA Resale Stock Fund at the gross amount,
excluding purchase discounts. The DOD Regulation 7000.14-R, volume 4;
“Accounting Policy and Procedures, n chapter 9, “Accounts Payable, “_January
1995, requires that Accounts Payable be reported net of all purchase drscounts.
The DFAS Columbus Center did not report Accounts Payable in accordance
with DOD guidance. Consequently, the DeCA Resale Stock Fund Accounts
Payable for FY 1997 was overstated by $17.8 million, which was the amount of
the purchase discounts earned for FY 1997.

DFAS did not promptly reconcile deposit differences shown on the Statement of
Differences issued by the Department of the Treasury. Consequently, the Fund
Balance With Treasury will be misstated. For more details, see the finding on
deposit reconciliations in Part I. A.




                                   21
Part II - Additional Information
Appendix A. Audit Process



   Statements Reviewed. We performed a limited review of the FY 1997
   Financial Statements of the DeCA Resale Stock Fund. The statements consisted
   of the Statement of Financial Position, the Statement of Operations and Changes
   in Net Position, the Statement of Cash Flows, and accompanying footnotes.
   We did not review the Statement of Cash Flows. Also, in FY 1996, DeCA was
   included in the Defense Business Operations Fund Consolidated Financial
   Statements; therefore, we did not examine the FY 1996 portion of the DeCA
   Resale Stock Fund Comparative Financial Statements. The final versions of the
   DeCA financial statements were submitted to us on February 6, 1998.

   To fulfill our responsibility to render an opinion on the FY 1997 Financial
   Statements of the DeCA Resale Stock Fund, we coordinated our audit efforts
   with DeCA and DFAS.

   Scope Limitatiorrs. We did not audit the FY 1996 financial data reported’on
   the DeCA Consolidated Financial Statements for FYs 1997 and 1996. The
   DeCA Consolidated Financial Statements consisted of statements for DeCA
   operations and the DeCA Resale Stock Fund. We did not audit the financial
   statements for DeCA Operations. In addition, we did not receive the financial
   statements in a timely manner; therefore, we could not determine the accuracy
   and completeness of the data reported. Also, we were unable to observe a
   physical inventory at any commissary because the inventories were completed
   before we began audit work; inventory is 76 percent of the DeCA Resale Stock
   Fund’s total assets. Further, our review was limited to 4 out of 299
   commissaries.

   Accounting Principles. Accounting principles and standards for the Federal
   Government are under development. The Federal Accounting Standards
   Advisory Board was established to recommend Federal accounting standards to
   three officials for approval. Those three officials are the Director, OMB; the
   Secretary of the Treasury; and the Comptroller General. The Director, OMB,
   and the Comptroller General of the U.S. issue standards agreed on by the three
   officials. To date, seven accounting standards and two accounting concepts
   have been published in final form. Accounting Standard No. 8 has been
   approved by the Federal Accounting Standards Advisory Board, but it must be
   reviewed by Congress before it is issued. In addition, the Federal Accounting
   Standards Advisory Board issued an exposure draft, “Amendments to
   Accounting for Property, Plant, and Equipment,” February 13, 1998, proposing
   amendments to Standards No. 6 and No. 8. These standards and concepts
   constitute generally accepted accounting principles for the Federal government.
   OMB Bulletin No. 94-01, as amended by OMB Bulletin No. 97-01,
   incorporates these standards and concepts and should be used by Federal
   agencies to prepare their financial statements. The following table lists the
    “Statements of Federal Financial Accounting Standards and Concepts.”

                                      24
                                                               Amendix A. Audit I’mcm




           Statements of Federal Financial Accounting Standards and Concepts

  Accounting
   StUldardS                                                                       Fiscal Year
 and Concerts                             Title                           Status    Effective

StandardNo. 1           Accounting for Selected Assets and                Final        1994
                        Liabilities, March 30,1993

StandardNo. 2           Accounting for Direct Loans and                   Fioal        1994
                        Loan Guarantees, August 23,1993

StandardNo. 3           Accounting for Inventory and Related              Final        1994
                        Propexty, October 27,1993

StandardNo. 4           Managerial Cost Accounting Concepts               Final        1998
                        and Standards, July 31,1995

StandardNo. 5           Accounting for Liabilities of the                 Final        1997
                        Federal Gov emment, December 20,
                        1995

StandardNo. 6           Accounting for Property, Plant, and               Final’       1998
                        Equipment, November 30, 1995

StandardNo. 7            Accounting for Revenue and other                 Final        1998
                         Financing Sources, May lo,1996

Standard No. 8           Supplementary Stewa&hip Reporting,            Approved’
                         June 11, 1996

 Concept No. 1           objectives of Federal Finaucial                  Final
                         Reporting, September 2,1993

 Concept No. 2           Entity and Display, June 6,1995                   Final

F$N3iycd      an expoam draft, “Amwuhmu     to AccolmriaS for Fwpclty, Plant, uld Gguipm*”    on Fcbnuy   13,
            XDOIU~Cdmfi contams txooowd amendmmts to Smuhnis No. 6 and No. 8.


Through FY 1997, agencies were required to follow the hierarchy of accqu$ng
principles outlined in OMB Bulletin No. 94-01, as amended by OMB Bulletm
No. 97-01. A summary of the FY 1997 hierarchy follows:

            l   standards agreed to and published by the Director, OMB; the
                Secretary of the Treasury; and the Comptroller General of the U.S.;

            l   requirements for form and content in OMB Bulletin No. 94-01, as
                amended by OMB Bulletin No. 97-01;

                                                  25
Bendix      A. Audit l’racss


                 l   accounting standards in agency accounting policy, procedures, or
                     other guidance as of March 29, 1991; and

                 l   accounting principles published by other authoritative sources.

         Review of Internal Co&-ok. Our consideration of the internal controls
         included obtaining an understanding of significant internal control policies and
         procedures and assessing the level of control risk relevant to all significant
         cycles, classes of transactions, or account balances. For the control policies and
         procedures that had been properly designed and placed in operation, we
         performed sufficient tests to provide reasonable assurance that the controls were
         effective and working as designed. For controls that were determined to be
         weak, we attempted to perform tests to determine the level of assurance that
         could be placed on those controls.

         Our consideration of the internal controls would not necessarily disclose all
         matters that are reportable conditions, and would not necessarily disclose all
         reportable conditions that are also considered to be material weaknesses.

         Review of Compliance With Laws and Regulations. As part of obtaining
         reasonable assurance about whether the DeCA Financial Statements for
         FYs 1997 and 1996 were free of material misstatements, we reviewed
         compliance with laws and regulations that may directly affect the financial
         statements, and other laws and regulations designated by the OMB and the
         DoD. Appendix E lists the laws and regulations we reviewed.



Methodology
         Auditing Standards. We conducted our financial statement audit in accordance
         with generally accepted Government auditing standards issued by the
         Comptroller General of the U.S., as implemented by the IG, DOD, and OMB
         Bulletin No. 93-06, “Audit Requirements for Federal Financial Statements,”
         January 8,1993. Those standards require that we plan and perform the audit to
         obtain reasonable assurance about whether the financial statements are free of
         material misstatements. We relied on the guidelines suggested by the General
         Accounting Office and our professional judgment in assessing the materiality of
         matters affecting the fair presentation of the financial statements and related
         internal control weaknesses.

         Computer-processed Data. To achieve the overall audit objectives, we relied
         on computer-processed data in the DeCA feeder systems’ and the DFAS

         * DeCA feeder systems include tbe DeCA Merim Business System, the Automated System for
            Army commissaries, and the Staukud Automated Voucher Examination System. The Interim
            Business System accounts for such things as commitwry receipts and sales, the Automated
            System for Army Commissaries provides inventory control for commissaries and the Voucher
            Examination System is DeCA’s bill paying system. These feeder systems interface with
            STANFINS for financial reporting purposes.



                                                 26
                                                   Apnendix A.    AuditProce~

    STANFJNS and SRD-1 systems. We asses& the reliability of these data by
    evaluating the internal controls designed to properly record, process, and
    summarize transactions in the DeCA systems and the STANFJNS general
    ledger. We focused on tracing transactions from input through entry into the
    STANFJNS general ledger. The information provided by those systems was
    generally reliable, and the discrepancies identified were not material to the
    financial statements.

    Audit AssMance. We reviewed Report No. 97-A-670-UA-003, “DFAS-Wide
    Audit of the Disbursing Office Deposit Reconciliation Rrocess for the Columbus
    Center,” issued by the Office of Jntemal Review, DFAS Columbus Center, on
    January 28, 1998. We used their audit work specific to unmatched and
    chargeback procedures and processes for the Reports Analysis Section, Reports
    Control Section, and the Disbursing Office, DFAS Columbus Center.

    Audit Period and Locations. The audit was conducted from August 1997 to
    April 1998 at various offices of the DFAS and DeCA.

    Representation Letter. We received a management representation letter from
    the Chief Financial Officer, DeCA, dated February 27, 1998, regarding the
    DeCA FY 1997 Financial Statements. The letter cited problems in the accuracy
    of various account balances provided by and used by DFAS to prepare the
    financial statements. We also received a legal representation letter dated
    February 27, 1998. See Appendix D for the management and legal
    representation letters.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in DOD. Further details are available on request.



Management Control Program
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive strategy for
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review. We performed a review of management controls over the
    preparation of the FY 1997 Financial Statements of the DeCA Resale Stock
    Fund. We reviewed controls over the recording, processing, and summarizing
    of revenue, inventory, and accounts payable transactions in the STANFJNS
    general ledger and the recording and posting of collection and disbursement data
    through SRD-1, which interfaces with STANFJNS. We also reviewed
    management’s self-evaluation of the controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses, as defined by DOD Directive 5010.38, in the preparation of
    the FY 1997 Financial Statements of the DeCA Resale Stock Fund. The
    STANFJNS and SRD-1 accounting systems did not provide reasonable
                                       27
i&mmlix        A. Audit Process


      assurance that financial information was reliable. STANFINS had not
      implemented the U.S. Government Standard General Ledger and was
      noncompliant in 5 of the 13 key accounting requirements for DOD. The SRD-1
      did not have sufficient edit checks to ensure the timely processing of
      disbursement data that may affect the Fund Balance With Treasury, Accounts
      Receivable, and Accounts Payable accounts. Additionally, STANFINS did not
      meet the requirements of the Federal Financial Management Improvement Act
      of 1996 or OMB Circular No. A-127. DFAS plans to replace STANFINS and
      SRD-1 with DOD standard systems. These replacement systems should correct
      the weaknesses noted above. As a result, we have not made recommendations
      regarding these weaknesses. Correction of the weaknesses noted above should
      improve the reliability of financial information. A copy of the report will be
      provided to the senior official responsible for management controls at DFAS.

          Adequacy of Management Self-Evaluation. The DFAS Annual Statement of
          Assurance for FY 1997 addressed an uncorrected material control weakness for
          the SRD-1 disbursing system, which is a subsystem of STANFINS that
          generates disbursement data and the SF 1219. The DFAS acknowledged that its
          SRD-1 disbursing system is deficient because of discrepancies in the reporting
          of checks issued. The Department of the Treasury has reported discrepancies
          between checks issued from SRD-1, as reported by Disbursing Offices on the
          Month-End Check Issue Summary (SF 1179), and the monthly summary of
          checks issued, as reported on the SF 1219. When these reports do not agree,
          either the overall liability for outstanding checks or the agency’s account is
          IlliSstated.

          DFAS did not identify the lack of edit checks in SRD-1 as a material internal
          control weakness, although that deficiency creates the risk that differences in
          deposits will not be reconciled before the required reporting date for DOD-wide
          financial statements. Furthermore, DFAS did not identify material internal
          control weaknesses for its STANFINS accounting system, although STANFINS
          was deficient in 5 of the 13 key accounting requirements for DOD. However,
          the DOD Annual Statement of Assurance for FY 1997 stated that DOD financial
          information was not always maintained adequately by accounting systems, was
          not fully compliant with regulatory and statutory requirements, and could not be
          used to prepare auditable financial statements.

          We consider the deficiencies in STANFINS and SRD-1 to be material internal
          control weaknesses because the financial information those systems generate
          cannot be used to produce reliable financial reports.




                                             28
Appendix B. Prior Audit Reports


Inspector General, DOD
    Report No. 97-223, “Recording and Reporting Expenses of the Defense
    Commissary Agency,” September 30,1997. The report states that some
    expenses were not properly recorded and reported because DFAS Columbus
    Center personnel did not follow DOD guidance in accounting for discounts
    earned on purchases of goods squired for resale. As a result, the expenses of
    the DeCA Resale Stock Fund were overstated by $15.6 million on the FY 1996
    Statement of operations. Although this weakness was not material to the
    financial statements, correcting the weakness will improve the accuracy of the
    statements. The report recommended that the DFAS Columbus Center
    accumulate discounts earned on purchases in the general ledger account Cost of
    Goods Sold-Inventory Gains-Discounts Earned, and include them in calculating
    the cost of goods sold. DFAS and the Under Secretary of Defense
    (Comptroller), Accounting Policy Directorate, initiated action to resolve this
    issue.

    Report No. 95428, Watement of F’inancial Position for the Commhqy
    Resale Stock Fund, as of September 30,1994,” June 8,1995. The report
    states that the internal control structure over transaction processing and general
    ledger recordings in the DeCA Resale Stock Fund did not provide reasonable
    assurance of an accurate inventory balance. As a result, the inventory balance
    of $574.7 million, reported on the Statement of Financial Position, reflected
    loss adjustments of $55.4 million, and DeCA could not determine the amount of
    the misstatement as of September 30,1994; therefore, the amount could be
    materially misstated. The report also states that the internal controls over
    transaction processing and general ledger recording in the DeCA Resale Stock
    Fund did not provide reasonable assurance of an accurate balance in Accounts
    Payable-Transactions With Federal Entities. As a result, the balance of
    Accounts Payable-Transactions With Federal Entities reported at $166 million
    on the Statement of Financial Position reported as of September 30, 1994, could
    be materially misstated. The report recommended that DeCA implement
    followup procedures to ensure that stores receive transferred merchandise and
    that supporting documentation is maintained. The report also recommended that
    DeCA implement controls over entering merchandise receipts into the computer
    system, over the regional review and approval of internal control checklists, and
    over the preparation of timely, effective reports of survey by independent
    personnel. The report recommended that DeCA adhere to the DOD Accounting
    Manual by directing that the Accounts Payable-Transactions with Federal
    Entities general ledger account be reconciled with the documentation for
    vouchers. Management generally concurred with the report.

    Report No. 94-184, “Controls Over Management of Meat and Tobacco
    Products at Selected Commissary Stores,” September 6,1994. The report
    states that DeCA did not have effective management controls over inventories of

                                        29
~ndix      B. Prior Audit Reuorts


        meat and tobacco products. The stores did not require periodic counts of
        tobacco products or other high-value inventory to be compared to accounting
        and inventory records. They also did not implement existing internal controls
        for the segregation of duties, maintenance of accounting documentation, use of
        automated meat cutting test, and physical security. As a result, financial
        records were unreliable. The report recommended that DeCA revise directives
        to require its stores to compare monthly physical inventories of meat to the
        balances shown in automated systems. DeCA partiaUy concurred, and later
        stated that system modifications would be needed to reconcile the results of the
        monthly meat inventory to data in the automated systems.

        The report also recommended that DeCA revise its procedures to require stores
        to count tobacco and other high-value inventory items on a monthly basis and
        compare these counts to data in the automated systems. DeCA was acquiring a
        new business system and a new Point-of-Sale system that could account for
        tobacco products as a separate entity. The corrective actions satisfied the intent
        of the recommendation.

        Finally, the report recommended that DeCA require its regional managers to
        monitor compliance with internal controls and establish plans to train personnel
        at management support centers in DeCA accounting policies and procedures.
        DeCA emphasized the requirement for the regions to monitor store activities to
        ensure compliance with procedures. DeCA has also formed management
        assistance teams for all phases of operations, including the training of personnel
        at management support centers. The corrective actions satisfied the intent of the
        recommendations.

        Report No. -183,      UCommksaq Revenues,n September 6,1994. The
        report states that DeCA did not adequately safeguard and account for cash
        receipts. The report recommended that DeCA establish controls for proper
        authorization of voids and refunds, collection of cash receipts from registers,
        deposits, physical security, security escorts, preparation of deposit reports,
        tracking of dishonored checks, segregation of duties for cash receipt, and
        prompt reconciliation by service centers of store sales and deposits.
        Management initiated corrective actions.

        Report No. 94-157, “Defense Commissary Agency l!hmchl Management
        Improvement Program,- June 30,1994. The report states that DeCA had
        made significant improvements in six functional areas of its Financial
        Management Improvement Program: accrued expenses, automated data
        processing, contract payments, fixed assets, inventory, and sales and deposits.
        The audit disclosed no material deficiencies in implementing the DeCA
        Financial Management Improvement Program. Management concurred with the
        report.

        Report No. 93-147, “Defense Couuuhary Resale Stock Fund Fhancial
        Statements for FY 1992,” June 30,1993. The report states that the auditors
        identified material internal control weaknesses over vendor payments and
        inventory accountability. Additionally, D&A had not documented many of its



                                            30
                                            A~pmIix B. Prior Audit RewrQ


operating and accounting policies and procedures. The report concluded that
the financial statements and the Notes to the Financial Statements did not
present fairly the financial portion of the fund.

Report No. 93-124, “Defense Commisary Agency Vendor Payments,
Returned Checks, and Rebates,” June 24,1993. This report states that
during the first half of FY 1992, DeCA did not adequately control financial
transactions for vendor payments, returned checks, and rebates. As a result,
DeCA could not be assured that the financial accounts for vendor payments
represented appropriately authorized transactions, and the DeCA financial
statements could be misstated. The report recommended that DeCA issue or
modify procedures to ensure that the receipt of vendor merchandise is verified,
contracting officers receive prompt feedback when fast payment vendors are
deficient, and that checks from vendors are endorsed and deposited promptly.
Management generally concurred with the report.

Report No. 93-096, The System Used by the Defense Commissary Agency
to Pay Vendors’ Invoice~,~May 14,1993. The report states that the DeCA
system for paying vendors’ invoices was not timely. As a result, DeCA missed
savings available through vendor discounts and incurred unnecessary interest
costs. The report recommended that the Director, DeCA, require service
centers and commissaries to improve the bill-paying process, taking maximum
advantage of discounts for prompt payments and minimizing interest costs.
Management concurred with the recommendations and stated that procedures
were being established to pay invoices promptly.




                                   31
Appendix C. Principal Statements and Footnotes

   This appendix (a total of 28 pages) consists of the DeCA Working Capital Fund
   Consolidated Principal Statements and accompanying footnotes. A complete set
   of the DeCA Working Capital Fund Financial Statements is available at the
   following web site address:




                                     32
              Principal Statements




DEFENSE COMMISSARY
      AGENCY       ,

  WORKLNG CAPITAL
      FUND

    CONSOLIDATED
PHNCIPAL STATEMENTS
Principal Statements




                       12
                                                                   Principal Statements

Department of Defense
Defense Commissary Agency - Working Capital Fund - Consolidated
Statement of Financial Position
As of September 30,1997
(Thousands)

ASSETS

1. Entity Assets:
   a. Tmnsactions with Federal (intragovernmental) Entities:
       (1) Fund Balance with Treasury (Note 2)                       ($196,813)       ($307,990)
       (2) Investments, Net (Note 4)                                         0                0
       (3) Accounts Receivable, Net (Note 5)                             7,230           14,376
       (4) Interest Receivable                                               0                0
       (5) Advances and Prepayments                                          0                 0
       (6) Other Federal (Intragovemmenta.l) (Note 6)                        0                  0
   b. Tmnsactions with Non-Federal (Governmental) Entities:
       (1) Investments (Note 4)                                              0                  0
       (2) Accounts Receivable, Net (Note 5)                           148,75 1            56,070
       (3) Credit Program Receivables/ Related
            Foreclosed Property, Net (Note 7)                                0                  0
       (4) Interest Receivable, Net                                          0                  0
       (5) Advances and Prepayments                                      1,194               934
       (6) Other Non-Federal (Governmental) (Note 6)                         0                  0
   C. Cash and Other Monetary Assets (Note 3)                                0                  0
   d. Inventory, Net (Note 8)                                          328,035            347,019
   e. Work in Process (Note 9)                                               0                  0
   f. Operating Materials/Supplies, Net (Note 10)                            0                  0
   g. Stockpile Materials, Net (Note 11)                                     0                  0
   h. Seized Property (Note 12)                                              0                  0
    i. Forfeited Property, Net (Note 13)                                     0                  0
    j. Goods Held Under Price Support and
       Stabilization Programs, Net (Note 14)                                 0                  0
    k. Property, Plant and Equipment, Net (Note 15)                        533              439
    1. warReserves                                                           0                0
   m. Other Entity Assets                                               99,154          154,535
   n. Total Entity Assets                                             $388,084         $265,383

2. Non-Entity Assets:
   a. Transactions with Federal (Intragovernmental) Entities:
       (1) Fund Balance with Treasury (Note 2)                              $0                 so
       (2) Accounts Receivable, Net (Note 5)                                 0                  0
       (3) Interest Receivable, Net                                          0                  0
       (4) Other (Note 6)                                                    0                  0




The accompanying notes are an integral part of these statements.



                                                            13
        Principal Statements

Department of Defense
Defense Commissary Agency -Working        Capital Fund - Consolidated
Statement of Fiiaacial Position
As of September 30,1997
(Thousands)

ASSETS, Continued

2.   Non-Entity Assets:
     b. Tramactions with Non-Federal (Governmental) Entities:
         (1) Accounts Receivable, Net (Note 5)                                so          $0
         (2) Interest Receivable, Net                                          0           0
         (3) Other (Note 6)                                                    0           0
     c. Cash and Other Monetary Assets (Note 3)                                0           0
     d. Other Non-Entity Assets                                                0           0
     e. Total Non-Entity Assets                                               SO          $0

3. Total Assets                                                         $388,084    $265,383

LIABrLlTIES

4. Liabilities Covered by Budgetary &sources:
   a. Transactions with Federal (Intragovernmental)Entities:
       (1) Accounts Payable                                             $171,645    $260,520
       (2) InterestPayable                                                      0          0
       (3) Debt (Note 16)                                                       0          0
       (4) Other Federal (Intragovernmental) Liabilities (Note 17)              0          0
   b. Tmnsactioos with Non-Federal (Governmental) Entities:
       (1) Accounts Payable                                              43 1,228    43 1,065
       (2) Accrued Payroll and Benefits
            (a) Salaries and Wages                                        13,682      14,928
            (b)Annual &CNedbWe                                                 0           0
            (c) SeverancePay and !Separation Allowance                         0           0
       (3) Interest Payable                                                    0           0
       (4) Liabilities for Loan Guarantees (Note 7)                            0           0
       (5) Lease Liabilities (Note IS)                                         0           0
       (6) Pensions and Other Actuarial Liabilities (Note 19)                  0           0
       (7) Other Non-Federal(Governmental)
            Liabilities (Note 17)                                              0           0
   c. Total Liabilities Covered by Budgetary Besources:                 $616.555    $706,5 13




The accompanying notes are an integral part of these statements.




                                                           14
                                                                       -
                                                                           Principal Statements

Department of Defense
Defense Commissary Agency - Woting       Capital Fund - Consolidated
Statement of Financial Position
As of September 30,1997
(Thousands)

LIABILITIES, Continued

5. Liabilities Not Covered by Budgetary I&sources:
   a. Transactions with Federal (lntragovemmental) Entities:
       (1) Accounts Payable                                                          SO                $0
       (2) Debt (Note 16)                                                              0                0
       (3) Other Federal (lntragovemmental) Liabilities (Note 17)                      0                0
   b. Transactions with Non-Federal (Governmental) Entities:
       (1) Accounts Payable                                                            0
       (2) Debt (Note 16)                                                              0
       (3) Lease Liabilities (Note 18)                                                 0
       (4) Pensions and Other Actuarial Liabilities (Note 19)                   64,945
       (5) Other Non-Federal (Governmental) Liabilities (Note 17)               30.365             28,211
   c. Total Liabilities Not Covered by Budgetary Resources                     $95,3 10           $28,2 11

6. Total Liabilities                                                          $711.865        $734,724

NET POSITION (Note 20)

7. Balances:
   a. Unexpended Appropriations (Note 3 1C)                                     $66,666         $56,442
   b. Invested Capital                                                        5,168,537       3,822,955
   c. Cumulative Results of Operations                                       (5,463,674)     (4,320,527)
   d. Other                                                                             0             0
   e. Future Funding Requirements                                                (95,3 10)      (28,211)
   f. Total Net Position                                                      ($323,781)      (w69,34 1)

8. Total Lhbilities and Net Position                                          $388,084        $265.383




The accompanying notes are an integral part of these statements.




                                                          15
     Principal Statements
Department of Defense
Defense Commissary Agency - Working Capital Fund - Consolidated
Statement of Operations aod Changes ia Net Position
For the Period Ended September 30,1997
(Tlwusands)

REVENUES AND FINANCING SOURCES

 1. Appropriated Capital Used (Note 3 1C)                           $906,214      $822.258
 2. Revenues from Sales of Goods and Services
    a. TothePublic                                                  5,134,642     5,236,286
    b. Intragovernmental                                               34,906        47,147
 3. Interest and Penalties, Non-Federal                                     0             0
 4. Interest, Federal                                                       0             0
 5. Taxes (Note 2 1)                                                        0             0
 6. Other Revenues and Financing Sources (Note 22)                     58,937         1,583
 7. Less: Taxes and Receipts Transferred to
    the Treasury or Other Agencies                                          0             0
 8. Total Revenues and Financing Sources                           $6,134,699    $6,107,274

EXPENSES

 9. Program or Operating Expenses (Note 23)                         $970,144      $981,520
10. C&t of Goods Sold (Note 24)
     a. To the Public                                               5,141$X8      5,296,086
     b. Intragoverumental                                              27,389        42,109
11. Depreciation and Amortization                                          30           355
12. Bad Debts and Writeoffs                                             6,343           232
13. Interest
    a. Federal Financing BankiTreaswy Borrowing                             0             0
    b. Federal Securities                                                   0             0
    c. Other                                                              530           398
14. Other Expenses (Note 25)                                           58,65 1          322
15. Total Expenses                                                 $6,204,755    $6,321,022

16. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses
    Before Extraordinary Items                                       ($70,056)    ($213,748)
17. Plus (Minus) Extraordiuary Items (Note 26)                              0             0
18. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses                            ($70,056)    ($213,748)




The accompanying notes are an integral part of these statements.




                                                        16
                                                                   Principal Statements
Department of Defense
Defense Commissary Agency - Working Capital Fund - Consolidated
Statement of Operations and Changes in Net Position
For the Period Ended September 30,1997
(‘I’bousands)

EXPENSES, Continued

19. N& Position, Beginning Balance, as Previously Stated             ($469,341)      ($808,093)
20. Adjustments (Note 27)                                             (250,833j             (47)
21. Net Position, Beginning Balance, as Restated                     ($720,174)      ($808,140)
22. Excess (Shortage) of Revenues and
    Financing sourceS Over Total Expenses                              (70,056)       (213,748)
23. Plus (Minus) Non Opemting Changes (Note 28)                       466,449          552,547
24. Net Position, Ending Balance                                     ($323,781)      ($469,341)




The accompanying notes an? an integral part of these statements.




                                                           17
       Principal Statements
Department of Defense
Defense Commissary Agency - Working Capital Fund - Consolidated
Statement of Cash Flows
For the Period Ended September 30,1997
(l’busands)

CASH FLOWS FROM OPERATING ACTIVITIES

 1. Excess (Shortage) of Revenues and Financing
    Sources Over Total Expenses                                       ($70,056)     ($213,748)

Adjustments Affecting Cash Flow:
 2. Appropriated Capital Used (Note 3 1C)                             (906,214)      (822,258)
 3. Decrease (Increase) in Accounts Receivable                         (85,536)        57,577
 4. Decmase @crease) in Other Assets                                     18,655        65,172
 5. Increase (Decrease) in Acoounts Payable                            (88,917)      (277,291)
 6. Increase @xrease) in Other Liabilities                               (1,246)        3,313
 7. Depreciation and Amortization                                            30           355
 8. Other Unfunded Expenses                                                   0             0
 9. Other Adjustments                                                 (25 1,064)          190
10. Total Adjustments                                              ($1,3 14,292)    ($972,942)

11. Net Cash Provided (Used) by Operating Activities               ($1,384,348)    ($1,186,690)

CASH FLOWS FROM INVESTING ACTIVITIES

12.   Sale of Property, Plant and Equipment                                 SO              so
13.   Purchase of Property, Plant and Equipment                              0               0
14.   Sale of Securities                                                      0              0
15.   Purchase of !kcmities                                                   0              0
16.   Collection of Loans Receivable                                          0              0
17.   Creation of Loans Receivable                                            0              0
18.   Other Investing Cash Provided (Used)                                    0              0


19. Net Cash Provided (Used) by Investing Activities                        SO              so

CASH FLOWS FROM FINANCING ACTIVITIES

20. Appropriations (Current Warrants)                                $916,438        $878,700
21. Add:         .
    a. Restorations                                                          0               0
    b. Transfers of Cash from Others                                   271,097               0
22. Deduct:
    a. Withdrawals                                                           0               0
    b. Transfers of Cash to Others                                    (307,990)       (533,193)

23. Net Appropriations                                              $1,495,525     $x,411,893

The accompanying notes are an integral part of these statements.




                                                        18
                                                                   Principal Statements

Department of Defense
Defense Commissary Agency -Working Capital Fund - Consolidated
Statement of Casb Flows
For tbe Period Ended September 30,1997
(Ttmusands)

CASH FLOWS FROM FINANCING ACTIMTIE S, Continued

24. Borrowing from the Public                                                $0              SO
25. Repayments on Loans to the Public                                         0               0
26. Borrowing from the Treasury and the Federal Financing Bank                0               0
27. Repayments on Loans from the Treasury and the Federal
    Financing Bank                                                            0               0
28. Other Borrowings and Repayments                                           0               0


29. Net Cash Provided (Used) by Financing Activities                $1,495,525       $1,411,893

30. Net Cash provided (Used) by Operating,
    Investing and Financing Activities                                $111,177        $225,203

31. Fund Balance with Treasury, Cash, and
    Foreign Currency, Beginning                                       (307,990)        (533,193)

32. Fund Balance with Treasury, Cash, and
    Foreign Currency, Ending                                         ($196,813)       ($307,990)



Supplemental Disclosure of Casb Flow Information:                   1997            1996


33. Total Interest Paid                                                    $530            $398



Supplemental Schedule of Financing and Investing Activity:

34. Property and Equipment Aquired Under
    Capital Lease Obligations                                                $0              so
35. Property Acquired Under Long-Term Financing
    Arrangements                                                             SO              so
36. Other Exchanges of Non-cash Assets or Liabilities                        $0              SO




The accompanying notes are an integral part of these statements.




                                                        19
     Principal Statements




The accompanying notes are an integral part of these statements.




                                                        20
                     Footnotes




DEFENSE COMMISSARY
      AGENCY

  WORIUNG CAPITAL
       FUND

    CONSOLIDATED
  FOOTNOTES TO THE
PRIN%IPAL STATEMENTS
Footnotes




            22
                                                                                      Footnotes

                  DEPARTMENT OF DEFENSE
                DEFENSE COMMISSARY AGENCY
         COMMISSARY OPERATIONS AND RESALE STOCKS
            NOTES TO THE PRINCIPAL STATEMENTS
                   AS OF SEPTEMBER 30,1997

Note 1. Simificant Accountine Policies

A. Basis of Presentation:

          These financial statements have been prepared to report the financial position and results
of operations ofthe Department of Defense @CD), as required by the Chief Financial Officers
Act. They have been prepared from the financial records ofthe Department in accordance with
DoD Accounting pdicies which are summarized in this note. These statements, therefore, are
different from the financial reports, also prepared by the DoD pursuant to OMB directives, that
are used to monitor and control DOD’Suse of budgetary resources.

B. Reporting Entity:

         DeCA Headquarters maintains overall program and fund control for funds distribution
and execution reporting. The headquarters staffissues fund targets to the three CONUS
commissary regions and to the OCONUS (European) region.

         On October 1, 1996, DeCA was inaugurated by the Department of Defense as a
performance based organization (PBO). PBO’s are part of an overall Government reinvention
program called the National Performance Review, sponsored by the White House and managed
by the Vice President, who nominated DeCA as one ofthe eight Federal Agencies in March
1996, to become a PBO. DeCA’s PBO status will allow the Agency to become more ef5cient
and business-like in its management of commissaries worldwide.

          On December 11, 1996, the Under Secretary of Defense (Comptroller) canceled the
Defense Business Operations Fund and established four funds: the Army Working Capital Fund,
the Navy Working Capital Fund, the Air Force Working Capital Fund, and the Defensewide
Working Capital Fund. Cdlectively, the fbur funds are known as the Defense Working Capital
Funds (DWCF). The DWCF embodies the principles ofthe National Performance Review:
cutting unnecessary spending, servicing customers, empowering employees, and helping
organizations solve their own problems.

         Centralized accounting support for the CONUS regions, Headquarters and the
Operations Support Center (OSC) is provided by the Defense Finance and Accounting Service
Columbus Center (DFAS-CO), at Cdumbus, Ohio. The Defense Business Management System
(DBMS) is used at DFAS-CO to account for the DWCF Commissary Operations. DBMS
provides complete accounting contrd of funds distribution, commitments, obligations, expenses,
disbursements, collections and reimbursements. The system also produces financial reports
containing the results and status of operations. Commissary Resale Stocks are accounted fop




                                                 23
Footnotes

using the Standard Finance System (STANFINS). CONUS region liaison offices interface with
DFAS for payroll matters and other accounting requirements.

         The Commissary Operations Fund is used for all civilian labor and related personnel
costs and operating, equipment and supply costs above the commissary level.

        Centralized accounting support for the European Region is provided by the 266 Theater
Finance Command, at the Subsistence Finance and Accounting Office (SFAOE) in Germany.
STANFINS is used for all DeCA accounting activity in Europe.

         Effective October 1994, DFAS-CO assumed full responsibility for the preparation and
submission of agency-level reports for DeCA. Both centralized accounting support off&s
provide accounting reports to the Agency Reporting Division (IIFAS-CO-AC), where they are
consolidated and submitted to the Departmental Accounting OtXce at the DFAS-Indianapolis
center.

          In CONUS, resource management personnel in region liaison offices input commissary
operations and surcharge-funded commitments, obligations and expenses into the DBMS system
over dedicated communication lines. Supporting documents are forwarded to DFAS-CO, while
copies are also retained at the regions. The regions also perform reviews of unliquidated
obligations. DFAS-CO maintains DeCA’s CONUS activity records, process and issue billings,
provides commercial accounts service, process travel and permanent change of station (PCS)
payment, provides collection and disbursement services, and provides civilian payroll services for
those DeCA organizations paid in DBMS. They also provide DeCA with activity reports for
DeCA funds executed through DFAS-CO.

          The European Region obtains support from the SFAOE to include accounting and
reporting for assigned funds; commercial accounts for offshope acquisitions;
collection/disbursement services; billing; processing TFO/TBO transactions and travel/PCS.
Accounting reports from STANFINS are provided monthly to the Region, DFAS-CO and DeCA
Headquarters by the SFAOE.

          In CONUS, obligations and receipts for subsistence delivery orders are generated
simultaneously and fonvarded electronically each business day fiom the commissaries into a
computer located at the OSC. The data is loaded in the Standard Automated Voucher
Examination System (SAVES), where the accounting transactions are produced. A SAVES
transaction file is transmitted to the computer center at Columbus, and interfaced into the
Automated System for Army Commissaries (ASAC) and STANFINS. Supporting documents are
retained at the commissaries and DFAS-CO East and West Service Centers.

        M&rip Fresh Fruit and Vegetable (FE&V) requisitions are issued for resale subsistence.
The requisition data is transmitted electronically from the commissary or Central Distribution
Center (CDC) to the OSC computer. Each workday, the OSC computer passes a transaction file
to Columbus, where the obligations are interfaced into ASAC and STANFINS.




                                                24
                                                                                     Footnotes

          The OSC was provisionally established December 4, 1994, and became fully operational
on October 1,1995. The OSC provides direct operational support to commissaries, regions, and
zone managers. Its functional elements include: contracting, accounting, transportation,
marketing, logistics, and information operations. The OSC is organized into multi-functional
business units (teams) around major business processes. The OSC performs resource
management functions related to CONUS stock fund bill paying, and reconciliation of CONUS
stock fund inventory supply records with the financial records. The OSC has an added mission to
manage the DeCA worldwide merchandise coupon redemption program which includes oversight
of processing from acceptance to redemption; accounting for redemptions and losses; and
processing documentation to return the cash to the resale stock fund. The Marketing Business
Unit (MBU) formed in 1994, addresses and resolves operational issues spanning Electronic Data
Interface (EDI), contracting for brand name resale products, merchandising at national levels,
cataloging, electronic pricing, and other support for store level operations. The MBU is part of
the OSC.

          The DFAS-CO East and West Service Centers generate payment vouchers for resale
commercial accounts for DeCA CONUS region commissaries. The voucher and check-
producing information is passed electronically from the OSC computer to DFAS-CO, where
checks or EFT payments are produced and forwarded to vendors, and the accounting records are
updated. DFAS-CO Service Centers retain documents to support vendor payments. DFAS-CO
provides check numbers to the Service Center to update the SAVES automated bill registers.
The DeCA European region commercial payments are made by the SFAOE using the
Computerized Accounts Payable System (CAPS). The voucher and check producing information
is generated by the Army Disbursing Office Payment System (DOPS). DeCA plans to implement
SAVES in Europe during FY 98.

          Due to a reengineering change, DeCA has assumed the acquisition and distribution
functions of the Defense Personnel Support Center @PSC) in support of commissaries, except
for fresh fruits and vegetables, and offshore acquisition. Contracts for specific meats, bread and
dairy products are now awarded by DeCA. Requisitions for semi-perishable and perishable brand
name products overseas are being supported by the DeCA Interim Business System @IBS) and
DeCA Overseas Ordering and Receiving System (DOORS). The perishables distribution center
in Europe, which was used to contain DPSC wholesale stock, is now used to contain DeCA retail
stock.

         Collections affect all three funds provided DeCA to operate the commissaries. Daily
commissary sales receipts and surcharge collections (five percent added to sales price at
checkout) are deposited into the DWCF Resale Stocks account and the Commissary Surcharge
Collections account, respectively. The face values of merchandise coupon redemptions are
deposited into Commissary Resale Stocks; reimbursement for coupon handling goes into the
DWCF Commissary Operations account.




                                                25
Footnotes

C. Budget and Budgetary Accounting:

         Budget authority is received on the DD Form 1105R Apportionment and
Reapportionment Schedule. For Commissary Operations, budget authority is apportioned on the
DD Form 1105R For Resale Stocks, obligations may be incurred up to the amount of revenues
generated by sales to customers. Both funds operate subject to the provisions of 3 1 USC 15 17,
relevant sections of 10 USC and DOD 1330.17-R

D. Basis of Accounting:

            Transactions are recorded on an accrual accounting and budgetary basis. Under the
accrual method, revenues are recognized when earned, and expenses are recognized tien a
liability is incurred, without regard to receipt or payment ofcash. Budgetary
accounting/reporting is performed in compliance with OMB requirements.

E. Revenues and Other Financing Sources:

         Resale Stock revenues are generated from sale of inventory items to authorized
commissary patrons, whether on a cash, credit/debit cards, or charge sale basis. These inventory
items consist of grocery, meat, and produce. Commissary Operations revenues are generated
from coupon handling fees and from miscellaneous services provided for authorized customers.
Revenues are recognized when earned.

F. Accounting for Intra-governmental        Activities:

         These statements are prepared net ofintra-agency eliminations.

G. Funds with the U.S. Treasury and Cash:

         DeCA’s fund resources are maintained in Treasury accounts. It’s cash receipts and
disbursements are processed by the Treasury, and the balance with the Treasury represents the
aggregate of all unexpended balances.

H. Foreign Currency:       Not Applicable

I. Accounts Receivable:

          The accounts receivable is presented in the Consolidated Statement ofFinancial
Position. This account includes government, public, and Vendor Credit Memorandum (VCM)
accounts and refunds receivables. Allowances for uncollectible accounts are based upon analysis
of receivables aged over 180 days old. During fiscal year 1997, the DeCA wrote off
approximately $5,192 in uncollectible receivables.

J. Loans Receivable:      Not Applicable

K. Inventories:     Inventories, including operating supplies and non-consumable items, are valued
at Latest Acquisition Cost as required by DoD accounting policies. Generally, these values are
based on prices paid for recently acquired items. Gains and losses that result from valuation


                                                   26
                                                                                          Footnotes

changes for inventory items are recognized and repotted in the Statement of Operations and
included in the calculation of the cost of goods sold.

L. Investments   in U. S. Government      Securities:   Not Applicable

M. Property and Equipment:

          DeCA utilizes the Defense Property Accountability System @PAS) to account for
property and equipment. This data is interfaced with DBMS and monthly reconciliations are
performed. DPAS does not interface with STANPINS; therefore, journal vouchers are prepared
to update the system. The monthly property and equipment reports are produced from DPAS.

N. Prepaid and Deferred Charges:         Not Applicable

0. Leases:   Not Applicable

P. Contingencies:    Not Applicable

Q. Accrued Leave:

          Civilian annual        is accrued earned and          accrued amounts        reduced as
is taken.       balance for          leave is          at the     of the       year to        current
pay       for the       that is          but not         Sick and        types of nonvested        are
expensed     taken. To        extent current     prior year appropriations are      available to
annual leave          but not          funding will    obtained from         financing sources.

R Equity:    Not Applicable

S. Aircraft/Ship Crashes:     Not Applicable

T. Treaties for Use of Foreign Bases: Not Applicable

U. Comparative      Data: Not Applicable

V. Undelivered Orders:      Not Applicable




                                                   27
Footnotes

Note 2. Fund Balance With Treasurv

A.   Working Capital Fund (USD(C)) and All Other Funds and Accounts:

                                                                           Entitv Assets
                                                                Revolv-      Appro-      Other
                                                Trust            ing        P;;g         Fund
                                                Funds           Funds                           Tvpes   Total

Unobligated Balance Available:
     Available                                    SOS                  0%           0           $0      s       0
     Restricted                                   SO%                  OS           0           $0      $       0
Reserve for Anticipated Resources                 SO%                  0%           0           $0      $       0’
Obligated                                         %O$                  O$           0           $0      %       0
Unfunded Contract Authority                       SO%                  O$           0           $0      $0
Unused Borrowing Authority                        % 0 $                0 $          0           $0      %       0
     Treasury Balance                             SO%                  0%           0           $0      %       0

B.    Working Capital Fund Activities Below (USD(C)) Level:
                                        Appropriated                             Entitv Assets
                                           Funds


           Cash from Others         $              :        x                       :   :
Funds Collected

1997 Treasury Warrant


C.    All Funds and Accounts.
                                                       No&n&v           Assets
                                        Funds Collected                 Funds Disbursed

z%&zce                                                  0          f                        0
Funds Disbursed                     f                   0          3                        0
Ending Balance                                          0                                   0

D. Other Information:    For 5500, the Fund Balance with Treasury amount includes adjustments
for undistributed collections of $5,088 and undistributed disbursements of$12,724.
Also included in undistributed disbursements is a DWCF Corporate Accounts Transfer
of$30,000. The original Treasury Warrant issued for 5JO0 is $917,300. This amount
decreased by $862, directed by a Program Budget Decision, to use for anti-terrorism.
Also included in the amount is $19,497 for Reprogramming Action FY 97-PA.
Collections include $7,438 which was not reported to Treasury and therefore is not included
in Treasury amounts. This amount is a cost recovery fee from tobacco sales from DeCA
Surcharge to DeCA Operations.




                                                   28
                                                                                         Footnotes

Fund Balance With Treasury (X00) reported above consists of collections and disbursements
that have been reconciled to financial reports at Treasury. Funds disbursed per activity records
show general ledger account balances of $(S, 195,491). The difference of $16,047 consists of
undistributed disbursements recorded in the automated accounting system, but have not yet been
processed by Treasury. Funds collected per activity records show general ledger account
balances of %5,130,582. The difference of $(99,959) consists ofundistributed collections of
%(805) and PY undeposited collections of $(99,154).

Last year, collections reported on the financial statements were overstated by $99,154 over
amounts reported in the automated accounting system, and receivables were understated by the
same amount. This is attributed to the method of reporting undeposited collections (cash sales)
in prior year. Although cash sales are recorded as receivables in the accounting system, FY 1996
year end financial statements reduced receivables by $99,154 and reported these funds as
collections. Based on a joint conference between DFAS and DeCA in April 1997, a decision was
made to begin reporting cash sales as receivables on prepared financial statements.

Since cdlections were overstated by $99,154 on prior year end financial statements, collections
reported on current year reports must be reduced by the same amount. The net effect on
reported net cash outlays and Fund Balance with Treasury between both reporting years will be
zero. Although this adjustment will reconcile the reported fund balance, it greatly distorts current
year net outlays for DeCA.

Note 3. Cash. Forebn      Currencv and Other Monetarv Assets            Not Applicable

Note 4. Investments                                                     Not Applicable

Note 5. Accounts Receivable
                                          (1)                 (2)          (3)              (4)
                                    AllOWanCe          AllOWanCe
                                     AmOunt        For Estimated        Method            Amount
                                      Due          Uncollectibles        used              &I&
A. Entity Receivables:
Intragovernmental                8   7,230                            See below      $       7,230
Governmental                     % 151,482                 (2,73 1)                  %     148,751

B. Non-Entity Receivables:
Intragovernmental               %             0    %            0                    $             0
Governmental                    8             0    $            0                    %             0

C.    Other Information: For 5500, Allowance was based on 2% ofthe dollar amount of public
receivables over 180 days delinquent. The amount of Intragovernmental receivables includes
CY and PY undistributed collections in the amount of $3,512.

For 5KO0, the gross receivables of $154,067 reported includes undistributed collections of $805.
This adjustment amount to receivables represents the difference of reported collections between
the automated accounting system and Treasury records. The gross receivables reported above
includes cash sales receivables of$101,197.

The method used for uncollectible accounts is derived by taking 10 percent of public receivables
that are aged over 180 days delinquent. During FY 97 the allowance account for uncollectible




                                                  29
receivables was adjusted accordingly at the time of the collection or write-off. In FY 97, DeCA
wrote off approximately $5,192 in uncollectible receivables.

Aggressive efforts taken by DeCA DFAS-CO and SFAOE have reduced the outstanding resale
charge sale receivables. The implementation of credit card procedures fw accepting credit cards
from the appropriated find customers have contributed to the government receivables being
reduced from $5.7 million at the end of September 1996, to $3.3 million at the end of September
1997. At this time, the use of credit cards by appropriated fund customers has been limited to
CONUS, pending implementation ofPOS-M in the overseas areas. Full implementation of POS-
M will be completed in FY 99. Even though the use of credit cards by non-appropriated fund
customers reduced receivables in the area, the overall increase during FY 97 was attributed to the
transfer of tobacco products to AAFES and NEXCOM. DeCA sold approximately $40.4 million
of existing inventory to the exchanges during FY 97.

See Note 29, Intrafknd Eliminations

Note     6. Other Assets Federal flntraeovernmental)         and Non Federal
              (Governmental)   Assets                                      Not Applicable

Note     7. Loans and Loan Guarantees. Non Federal Borrowers               Not Applicable
Note     8. Inventorv,   Net
                                                     (1)           (2)         (3)           (4)
                                                 Inventory     Allowance Inventory,   Vg$s
                                                  Amount       For Losses   Net

A. Inventory Categories:
       (1)   Held for Current Sale               $325,214         2,821    328,035           a
       (2)   Held in Reserve for Future Sale
       (3)   War Reserve Materiel
       (4)   Excess, Obsolete, and Unserviceable
       (5)   H&dkr Repair
                                                 $325,214         2,82 1   328,035

B. Restrictions      on Inventory Use, Sale, or Disposition:

C. Other Information: Inventory Held for Current Sale includes inventory goods ready for sale
and inventory-in-transit. Inventory allowance reported on the financial statements values
inventory at the latest acquisition cost (&AC) based on sales revenue. The allowance for
gains/losses (GLA 1529) was adjusted based on the computation of Cost of Goods Sdd.

Note     9. Work in Proeress                                               Not Applicable

Note 10. OneratinP Materials and Sundies          tOM&Sk Net               Not Applicable

Note 11. Stocknile Materials Net                                           Not Applicable

Note 12. Seized Pronertv                                                   Not Applicable

Note 13. Forfeited Pronertv. Net                                           Not Applicable



                                                   30
                                                                                          Footnotes

Note 14. Goods Held Under Price SUDDOX%
                                      and
          Stabilization Proerams, Net                                   Not Applicable

Note 15. ProDertv. Plant and Eauhment,      Net

                                            (1)           (2)     (3)                 (4)     (5)
                                         Depreci-                                          Net
                                          ation        Service   Acquisition Accumulated Book
                                         Method*         Life*    Value       Denreciation Value
Classes of Fixed Assets
A. Land                                                             $         0       %     0%      0
B. Structures, Facilities, &
   Leasehold Improvements                                           %       103      $      0 $103
C. Military Equipment                                               $         0      $      0%    0
D. ADP Software                                                     $         0     .%      0%    0
E. Equipment                                 SL                     $     1,142       $1,037 % 105
F. Assets Under Capital Lease                                       $         0       $      O$    0
G. Other                                                            $         0       $      0%    0
H. Natural Resources                                                $         0       $      0%    0
I. Construction in Progress                                         %       325       %      0 $325
     Total                                                        $ 1,570             $1,037$533
     *Keys:
           Depreciation Methods                     Range of Service Life
           SL = Straight Line                       l-5    =lto5years
           DD = Double-Declining Balance            6-  10 =6tolOyears
           SY = Sum of the Years’ Digits            11-20= 11 to20years
           IN = Interest (sinking fund)             >20    = over2oyears
           PR = Production (activity or use method)
           OT = Other (describe)

Other Information: As of the end of Fiscal Year 1997, completed commissaries have been
transferred to the host installation. A decision is pending from the DoD Policy, Under Secretary
of Defense (Comptroller) on whether the completed commissaries should remain on the property
book of the Defense Commissary Agency or be transferred to the installation. The pending
decision should also determine if the property should be carried on the property account     of
                                                                                           the
Defense Working Capita1 Fund or the Titleholder, Surcharge Cdlections account. Construction
of commissaries is funded by Surcharge Cdlections. The value of commissaries completed since
the inception of DeCA is $363,015.

Note 16. Debt                                                        Not Applicable

Note 17. Other Liabilities

A. Other Liabilities Covered by Budgetary      Resources:
B. Other Information:



                                                  31
C. Other Liabilities Not Covered by Budgetary Resources:

                                      Non-Current         current
                                       Liability          Liabilitv           Total

1. Intragovernmental

2. Governmental
     (a) Annual Leave                  $30,365                               $30,365

                                        !§30,36:                              $30,3&

Note 18. Leases                                                           Not Applicable

Note 19. Pensions and Other Actuarial Liabilities

                                                  (2)                      (3)             (4)
                                         tzkrial
                                          Present
                                         Value of                          Assets
                                         Projected      Assumed           Available    Unfunded
            Major Program                  Plan         Interest           to Pay       Actuarial
              Activities                 Benefits         a               Benefits       Liability
A     Pension and Health Plans          %                             8                8
B.    Insurance/Annuity Programs
C.
D.
      Other-Workers Compensation
      TotalLineA+B+C
                                        f
                                        %
                                                                      f
                                                                      $                i3%%  ,
E. Other Information:

Future workers’ compensation figures are provided by the Department of Labor. The liability for
future workers’ compensation (FWC) benefits includes the expected liability for death, disability,
medical, and miscellaneous costs for approved compensation cases. The liability is determined
using a method that utilizes historical benefit payment patterns related to a specific incurred
period to predict the ultimate payments related to that period. Consistent with past practice, these
projected annual benefit payments have been discounted to present value using the Of&e of
Management and Budget’s, June 10, 1997 economic assumptions for lo-year Treasury notes and
bonds. Interest rate assumptions utilized for discounting were as follows:



                                          6.24 % in year 1
                                          5.82 % in year 2
                                          5.60 % in year 3
                                          5.45 % in year 4
                                          5.40 % in year 5 and thereafter




                                                   32
                                                                                         Footnotes



Note 20. Net Position

                                                              Trust       Appropriated
                                                              Funds         Funds              Total
A. Unexpended
   Appropriations:
   (1) Unobligated
       a. Available                                     0                                  %
       b. Unavailable                       f           0                 f 66,666o        $      66,666o
   (2) Undelivered Orders
B. Invested Capital
C. Cumulative Results of Operations
                                            f5,168,5370                                    : 5,168,53;

D. Other
E. Future Funding Requirements
                                            :(5,463+74)
                                            $ (95.310)
                                                        0                                  ;(5,463674) 0
                                                                                                 (95.310)
F. Total                                    $ (390,447)                                    $    (323,‘s 1)

G. Other Information:       For 5500, the amount ofUnavailable Appropriated                the
amount of           Undelivered Orders(56,442) +      Treasury Warrant (916,438) less
Appropriated Capital Used (906,214) Appropriated                  is the amount       of
                                                                                   current
year disbursements, less revenue, less CY reprogramming action (19,497), and + or - change
in liabilities from prior year to current year.

For 5KO0, Invested Capital includes the initial assets capitalized in October 1991, the inventories
capitalized in October 1995 due to assume the acquisition and distribution of the DLA cold
storage functions, the inventories decapitalized in October 1995 due to transfer of the Troop
Issue Gmctions to the Air Force, and the cumulative funds transferred to Treasury.

Note 21. Taxes                                                        Not Applicable

Note 22. Other Revenues and Financing Sources
                                                                      1997                 1996
A. Other Revenues and Financing Sources:
    (1) Other Miscellaneous Gains                                     $      322           $   1,583
    (2) CSRVFERS Retirement, Federal Employees Health
        Benefits, Federal Employee Group Life Insurance
          Total

B. Other Information: The miscellaneous gain account on the general ledger is used to record
the write-&of uncollectible receivables (Bad Checks, Charge Sales), the cash sales adjustments,
and the miscellaneous checks received from claims filed as a result ofReport of Surveys,
Transportation Discrepancy Reports, and the Report of Discrepancy (RODS). DFAS-CO
prepares a JV monthly to move the amount of the write offs of charge sales and bad checks out of
the Other Miscellaneous Gains account to the Allowance for Loss on Receivables account.
Depending on the net volume between write-of% and collections during the fiscal year, this
account may have either a debit (loss) or credit (gain) balance on the general ledger trial balance.

Imputed Pension and Other Retirement Benefits (ORB):
             CSRS/FERS Retirement            $41,193
             Health                           $17,370
             Life Insurance                   $    52



                                                  33
The $58,615 represents the imputed financing for pensions and other retirement benefits. The
OfIice of Personnel Management (OPM) is the administrative entity for pensions and other
retirement benefits (ORB). OPM accounts for and reports the pension liability in the financial
statements while the employer discloses the imputed financing. OPM actuaries provide the
normal cost rates which are used to calculate the imputed financing.

Note 23. Propram or Oueratine Exuenses

A. Operating Expenses by Object Classification:
                                                             1997
                                                             __<,                         -1996
          Personal Services and Benefits               % 574,987                 $       575,062
          Travel and Transportations                   $ 160,707                 f       159,604
          Rental, Communication and Utilities          3   1,067                           1,105
          Printing and Reproduction                           185                S            181
          Contractual Services                         $ 230,347                 $       242,024
          Supplies and Materials                       $     753                 S         1,293
          Equipment-Not Capitalized                    %     322                 S           709
          Grants, Subsidies and Contributions          $   1,194                 %         1,214
          Other Expenses (Cost of Services)            %     833                 %           328
     (10) Total Expenses by Object Class               $ 970,395                 $       981,520

B. Intra Eliminations                                   $       (251)

C. Total                                                 $ 970,144

D. Other Information:     See Note 29, Intrafund Eliminations

Note 24. Cost of Goods Sold

A. Cost of Services Sold:

    (1)   Beginning Work-in-Process                                     $            0
    (2)   Plus: Operating Expenses                                                   0
    (3)   Minus: Ending Work-in-Process                                              0
    (4)   Minus: Completed Work for Activity Retention
          Cost of Services Sold                                         S            :

B. Cost of G-oods Sold from Inventory (using Latest Acquisition             Cost):

    (1) Beginning Inventory - L.A.C.                                                              $ 342,812
    (22) Less: Beginning Allowance for Unrealized Holding Gains (Losses)                               4,207
               Purchases at Cost                                                                   5,152,227
               Customer Returns - Credit Given                                                              0
               DLR Exchange Credits
               Inventory Losses Realized                                                                  (369
               Ending Inventory - L.A.C.                                                           (325,214)
               Ending Allowance for Unrealized Holding Gains (Losses)                                 “il”;;j
               Equity Transfers of Inventory to Others
               Equity Transfers of Inventory from Others                                                 123
   (11 j Equals: -Cost of Goods Sold from Inventory                                               !§5,171,106




                                                 34
                                                                                          Footnotes

C. Intra Eliminations                                                                     $   ww

D. Total                                                                                  $5169,057

E. Other Information:      The breakout of Cost of Goods Sold between governmental (public)
and Intragovernmental sources reported on Lines 10A and 1OBon the Statement of Operations is
based upon sales revenue that is generated from within and outside the government. Both
beginning and ending allowance accounts are adjusted to reflect inventory gains and losses at the
latest acquisition cost (LAC) versus standard price as reported in the automated acccnmting
system.

Under current DeCA policy, discounts earned in the Resale Stocks fund are transferred each
month to the Surcharge Collection fund as revenue. This causes COGS for Resale Stocks to be
higher than if the discounts earned were retained in the Resale account. Initially, the dollar value
of discounts earned is recorded in the Resale Stocks fund as a reduction to COGS/expenses. At
month end, these funds are reversed out ofthe Resale Stocks fund, and electronically transferred
over to the Surcharge Collection fund as an increase to revenue. The net effect on accumulative
operating results (AOR) between both funds is zero. This accounting practice has overstated
expenses this fiscal year for Resale Stocks by $17.8 million on prepared financial statements.
AOR reported through FY 19% for Resale Stocks has been overstated by $65 million.

See Note 29, Intrafimd Eliminations

Note 25. Other Exnenses
                                                     1997                  1996
A. Other Expenses:
    (1) Loss on Disp of Cap Assets                         0                  11
    (2) Inventory Losses                      s           36       f         311
    (3) ;S*y/FERS, FEHB, FEGLI                $       58.615       $           0
                                              %       58,651       $         322

B. Other Information:

Imputed Pension and Other Retirement Benefits (ORB):
              CSRS/FERS Retirement           41,193
             Health                          17,370
              Life Insurance                      52
The $58,615 represents the imputed expense for pensions and other retirement benefits. The
Of&e of Personnel Management (OPMJ is the administrative entity for pensions and other
retirement benefits (ORB). OPM accounts for and reports the pension liability in their financial
statements while the employer discloses the imputed expenses. OPM actuaries provide the
normal cost rates which are used to calculate the imputed expenses.

Note 26. Extraordinarv     Items                                       Not Applicable

Note 27. Prior Period Adiustments

A. Prior Period Adjustments:

     (1) Prior Year Expenses                                           $      (250,833)
Footnotes

Note 28. Non-Oneratine      Chatwes - (Transfers and Donations)
                                                         1997                           1996
A. Increases:
   (1) Transfers-In:
        (a) Real Property Maintenance                           $          544      %          194
        (b) Capitali?ed Assets                                  :            870               389
        I;{ -Nz Capital Equipment                                                   f          327
               Vance                                                                             0
        (e) Transfers-In                                        s         1,194
                                                                            518     3
   (2) Donations Received                                       %             0     $            :
   (3) other Increases                                          %             0     $            0
   (4) Total Increases                                          $         2,343     %          910
B. Decreases:
   (1) Transfers-Out:
       (a) Funds with Treasury PY                               $ (202,508)         $ (5 18,907)
       (b) CY - PY Approp Avail (66,666-56,442)                 3 (10922;)
       (c) DPAS Transfer
       (d) Building                                             $
       (e) PY DLA Transfer, Adjusted CY                         $ (251,60:)
       (f) Reprogramming Action FY 97-PA
       (g) Inventory Trans Out to Govt. Agencies                f         192
                                                                      (19,497)
       (h) Funds Transferred Out to Treas
   (2) Donations                                                : (50Joo)0
   (3) Other Decreases(Unfi.mded Work Comp Liab)                $   64.945          $
   (4) Total Decreases                                          % (468.792)         !I (553.45;)
C. Net Non-Operating Changes (Transfers):                       $ 466,449           $ 552,547

Note 29. Intrafund    Eliminations:

Schedule B:     ELIMINATING           ENTRIES
                                      Cdumn A        Cdumn B               Column C            Column D
Selling Activity:
                                  Accounts                                 Unearned
                                  Receivable          Revenue              Revenue             Collections
DeCA                                             2          2,300                       0               2,123
                    TOTAL

Customer Activity:                    Column A       Column B              Column C            Cdumn D
                                      Accounts
                                       Pavable        EXDWW~               Advances         Disbursements
(SRCKD)
  A00 Trust Fund Accts                           2                  7                   0                     81
   100 Intra-Approp.Reimb                        0              2,042                   0                  2,042
  400     DOD Sources (Other                     0                251                   0                      0
          Defense Accts)
     414      DLA (0th than                      0                  251                 0                     0
          418) Btwn DLA
Undistributed                           N/A               N/A                 N/A                    N/A
                TOTAL                            2              2,300                   0                  2,123


                                                     36
                                                                                          Footnotes


Schedule C:       ELIMINATINGENTRIES
Selling Activity:             Column A               Column B         Column C         Column D

                                  Accounts                            Unearned
                                  Receivable           Revenue        Revenue          Collections

DeCA                                      6,532            3 1,303                0           38,563

                    TOTAL

Customer Activity:                Column A           Column B         Column C         Cdumn
                                  Accounts
                                   Payable           EXDCJIWS         Advances        Disbursements
(SRCKD)
  100 Navy, Marine Carp                      60              1,481                0            1,642
  200 Army Reimb                            541             6,286                 0            6,557
  300 Air Force Reimb                       451            13,898                 0           16,199
  400 Navy Reimb                          1,789             8,421                 0            8,247
  700 Dept of Defense                        86                825                0              813
Undistributed                             3,605                392      N/A                    5,105
              TOTAL                       6,532            3 1,303                0           38,563

Schedule D:         ELIMINATING    ENTRIES

Selling Activity:                    Column A           Column B       Column C         Column D

                                     Accounts                          Unearned
                                     Receivable          Revenue       Revenue          c01kctions

DeCA                              3,603        698                                             3,461
                     TOTAL                     698            3.603               0            3.461

Customer Activity:                   Column A           Column B       Column C         Column D

                                     Accounts
                                     Payable            EXD~ZIISS      Advances       Disbursements
(SRCKD)
   800  Other Govt Depart                      698            3,603               0            3,461

                     TOTAL                     698            3,603               0            3,461




                                                  37
Footnotes

For X00, revenues exceed earnings due to write-offs of uncollectible accounts. The proforma
transaction code currently used to write-off receivables reduces earnings on the budgetary general
ledger trial balance, but does not effect revenues recorded on the proprietary accounts.

Note 31. Other Disclosures

A.   Unmatched     Disbursements,   Negative Unliquidated    Obligations, and Aged In-Transit
Disbursements.
                                          September       September       Dollar      Percent
                                             1996             1997       Change       Change
     Unmatched Disbursements                3,515             4,343          828        24%
     Negative Unliquidated obligations        739             2.866       2.127        288%
     TOTALS                                 4,254            7,209        2,955          69%
B. Other Information: For 5K00, Quarterly joint reviews were conducted during the year to
include the unliquidated obligations reviews, negative undelivered orders, stand alone
disbursements, and receipts greater than disbursements.

C. Unexpended Appropriations/Appropriated         Capital Used

For 5JO0,these lines reflect a change in pdicy regarding the reporting ofthe Treasury Warrant.
Prior to 1996, the warrant was not included in departmental reporting financial statements. Prior
year appropriation amounts have been adjusted as Agency Component Adjustments. In 1997, the
amount of Unexpended Appropriation (66,666) is the amount ofthe PY Undelivered Orders
(56,442) + CY Treasury Warrant (916,438) less Appropriated Capital Used (906,214).
Appropriated Capital Used is the amount ofcurrent year disbursements (1,033,650), less revenue
(45,199), less CY reprogramming action (19,497), and - (62,740) change in liabilitres from prior
year to current year.




                                                 38
                                              ADD~ISX B.     Prior Audit   RegorQ


Appendix D. Audit Opinion

   This
     appendix (a total of 3 pages) consists of the audit opinion.




                                      33
                                      INSPECTOR GENERAL
                                      DEPARTh4ENTffoEFENsE
                                        4ooAmlYNAvvmiv~
                                      ARLINGTON, vlRGlNm22202



                                                                              February 27.1998
MEMORANDUM          FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                          AND CHIEF FINANCIAL OFFICER
                        DIRECTOR, DEFENSE COMMISSARY AGENCY
                        DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                          SERVICE
SUBJECT: Disclaimer of Opinion on the Defense Commissary Agency Financial Statements
         for FY 1997 (Project No. 7FH-2042)


        The Chief Financial Officers (CFO) Act of 1990, as amended by the Federal Financial
Management Act of 1994, requires financial statementaudits by the Inspectors General and
prescribes the responsibilities of management and auditors for the financial statements, internal
controls, and compliance with laws and regulations. Directors of the DOD agencies are
responsible for establishing and maintaining an internal control structure and for co.mplying
with laws and regulations applicable to DoD. Our responsibility is to render an opmlon on the
financial statements based on our work, and to determme whether internal controls were
adequate and whether the Defense Commissary Agency (D&A) complied with laws and
regulations.
         Before FY 1992, the DOD opexated a significant number of commercial and industrial
facilities under a revolving fund concept. In FY 1992, the revolving funds were consolidated
to form the Defense Business Operations Fund (DBOF). The Inspector General, DOD, was
responsible for auditing and rendering an opinion on the DBOF consolidated financial
statements. In December 1996, the Under Secretary of Defense (Comptroller) restructured the
DBOF into separate working capital funds.

        DIier        of Opinion. We were unable to Tenderan opinion on the DeCA
Consolidated Financial Statements for FYs 1997 and 1996. The DeCA Consolidated Financial
Statements consisted of statements for DeCA Operations and D&A Resale Stock Fund. We
did not audit the financial statements for DeCA          ‘ons. In addition, we did not receive
the financial statements in a timely manner; there9””
                                                    ore, we could not determine the accuracy
and completeness of the data reported. Also, we were unable to observe a physical inventory
(77 percent of the Commissary Resale Stock Fund total assets) at any commissary. Therefore,
the scope of our work was limited. For the work we did perform on the FY 1997 DeCA
‘Resale Stock Fund Financial Statements, we reviewed selected internal controls and aspects of
compliance with laws and regulations. Although pro           has been made, significant
deficiencies in the accounting systems and tlie lack o Tss
                                                        a sound internal control structure
prevented the preparation of accurate finan& statements. Without a sound intemal control
structure, management cannot rely on the FYs 1997 and 1996 DeCA Resale Stock Fund
Financial Statements for making decisions or asse&ng performance.

        Accounting Principles. The DeCA fhancial statements’for FYs 1997 and 1996 were
to be prepared in accordance with Office of Management and Budget (OMB)
Bulletin No. 94- 01, “Form and Content of Agency Financial Statements,”
November 16, 1993, as supplemented by OMB Bulletin No. 97-01, “Form and Content of
Agency Financial Statements,” October 16, 1996. These Bulletins incorporate the
    2



1
3
Appendix E. Management and Legal
Representation Letters

   This appendix ( a total of 4 pages) consists of the managementand legal
   representationletters for DeCA Financial Statementsfor FY 1997.




                                     34
                      DEFENSE     COMMISSARY             AGENCY
                                  HEADOUARTERS
                                   1300   E AVENUE
    I                    FORT    LEE,   VIRGINIA   23801-1800




                                                                February 27, 1998

MEMORANDUM    FOR ASSISTANT     INSPECTOR GENERAL                 FOR AUDITING

SUBJ-ECT:    Management Assurance Concerning FY 1997 Defense
             Commissary Agency Working Capital Fund Financial
             Statements

     This is in regard to your audit of the FY 1997 Defense
Commissary Agency Working Capital Fund Financial Statements
(Project No. 7FH-2042).  For the purpose of expressing an
opinion as to whether the financial statements are presented
fairly in accordance with the other comprehensive basis of
accounting described in Office of Management and Budget (OMB)
Bulletin No. 94091, "Form and Content of Agency Financial
Statements," November 16, 1993, and applicable portions of OMB
Bulletin No. 97-01, "Form and Content of Agency Financial
Statements," October 16, 1996, we confirm, to the best of our
knowledge and belief, the following representations made to you
during your audit.

          1)  We are responsible for the fair presentation of the
FY 1997 Defense Commissary Agency Working Capital Fund Financial
Statements in accordance with OMB Bulletin No. 94-01 and
applicable portions of OMB Bulletin No. 97-01.

          2)  We have made available to you all financial records
and related data.

          3) We can provide reasonable assurance that the
accounting and non-accounting systems used to produce the
financial statements are reliable.

          4) We have no plans or intentions, other than those
previously disclosed to you, that may materially affect the
carrying value or classification of assets and liabilities.

          5) There have been no irregularities involving
management or employees who have significant  roles in the
internal control structure.

           6) No other employees have been involved in
irregularities that could materially affect the financial
statements.
           7) We have received no communications from regulatory
agencies or auditors concerning noncompliance with, or
.deficiencies in, financial reporting practices that could have a
material effect on the financial statements.

          8) There are no violations or possible violations of
laws or regulations whose effects should be considered for
disclosure in the financial statements or as a basis for
recording a loss contingency.

          9)  There are no other material liabilities or gain or
loss contingencies that are required to be accrued or disclosed
by Statement of Federal Financial Accounting Standard (SFFAS) No.
5 "Accounting for Contingencies," December 1995.

          10) There are no unasserted claims or assessments that
our legal representatives have advised us must be disclosed in
accordance with SFFAS No. 5.

          11)  There are no material transactions that have not
been properly recorded in the accounting records and reflected in
the financial statements.

          12)  The Department of Defense has satisfactory title
to all assets, and there are no liens or encumbrances on such
assets, nor has any asset been pledged.

         -13) No events have occurred after the balance sheet
date that should require adjustments to, or disclosure in, the
financial statements.

          14) We cannot attest to the accuracy of the various
account balances provided by the Defense Finance and Accounting
Service and used by DFAS to prepare the financial statements.   We
do not accept the Collection and Disbursement figures in the
Financial Statements as being accurate.   During N 1997,
Collection information was reported to the Department of the
Treasury incorrectly as reverse Disbursements. .The Defense
Finance and Accounting Service, Columbus Center submitted monthly
adjustments to Treasury via the DELMARS RCS 302 report; however,
we cannot determine that all adjustments have been posted by
Treasury. Additionally, Undistributed Disbursements contain a
transfer from the Defense Working Capital Fund Corporate Account
of $30 million.   The $30 million was allocated to DeCA based on
an estimate of prior period undistributed disbursements and
collections. We cannot validate that each individual transaction
comprising the $30 million belongs to DeCA. The transfer
increased DeCA's Disbursement account balance and decreased the
Accounts Payable account balance.
          15) All adjustments , with the exception as noted in
number 14, made to account balances by our activity or the
Defense Finance and Accounting Service are fully documented and
were made in accordance with applicable accounting standards.




                              Chief Financial Officer
                             DEFENSE     COMMISSARY           AGENCY
                                         HEADOUARTERS
                                          1300   E AVENUE
                                 FORT   LEE, VIRGINIA   23801-1800




GC                                                                            February 27,1998

MEMORANDUM        FOR GENERAL COUNSEL,             DEPARTMENT          OF DEFENSE

FROM:   GENERAL     COUNSEL, .DEFENSE COMMISSARY                     AGENCY

SUBJECT:     Inspector General, Department of Defense, Audit of FY 1997 Defense
             Commissary Agency Working Capital Fund Financial Statements (Project No.
              7FH-2042)

          The Defense Commissary Agency has no Pending or Threatened Litigation, Claims and
Assessments that meet the definition of material to the Defense Working Capital Fund.
Additionally, DeCA has no Unasserted Claims and Assessments that have a reasonable
possibility of unfavorable outcome.




                                            4iGi%;.Y&
                                             General Counsel
                                                                         1.
Appendix F. Laws and Regulations Reviewed

   Title 31,       Code, subtitle   “Financial Management,”                   3512,
   “Executive           Accounting and       Financial Management                       and
   Plans”

           Law 101-576,            Financial Officers        of 1990,”                15,
    1990

           Law 104-208,              Financial Management                      Act of
           September 30,1996

         Bulletin No.            “Addendum to            Bulletin No.
   January 16,1998

         Bulletin No.            ‘Form and              of Agency             Statements,”
    October
    OMB Bulletin    94-01, “Form             Content of             Financial Statements,”
             16, 1993
           Bulletin No.          “Audit Requirements         Federal Financial
                   January 8,

    OMB Circular         A-127, “Financial                   Systems,” July          1993

    OMB             No. A-123,                  Accountability and               * June
    1995
    Treasury             Manual 2-3100,                    for Disbursing
    Reports,” April

    DOD 7000.14-R,          Financial Management                         volume 4,
             1995: chapter   “Accounting for     and Fund                     with
    Treasury;”          9, “Accounts          chapter 18,

    DOD 7000.14-R,            Financial Management                  n volume
    May 1996:             5, ‘Deposit     Transfer of            Funds; *
           7000.14-R, “DOD              Management Regulation,”                  1lB,
                1994: chapter      “Liabilities”
    DoD               5010.38, ‘Management                Program,” August           1996

    DeCA               70-2, “Management                Program,” August         1996


                                          35
Appendix F. Laws and Regulations Reviewed

      DeCA Directive 70-3, “Management Control Plan,” August 30, 1996

      DeCA Directive 70-6, “Financial Procedures for Commissary Management
      Support Center,” July 23, 1993

      DeCA Directive 70-7, “Financial Management for Headquarters and Regions,”
      August 31, 1994: chapter 22, “Accountability Variance Statement”

      DeCA Directive 70-10, ‘Procedures for Processing and Paying Commercial
      Accounts Using SAVES,” August 31, 1994
      DeCA Directive 70-16, “Financial Management for Service Centers,” August
      31, 1994

      DeCA Directive 40-21(C2), “Subsistence Accountability Inventory Procedure, *
      July 15, 1995




                                        36
Appendix G. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Defense Organizations
Director, Defense Commissary Agency
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus Center
Director, Defense Logistics Agency




                                          37
&me&ii     G. ReDort Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                           38
Part III - Management   Comments
Defense Commissary              Agency Comments




    IR                                                           u#r28%@
    MEMORANDUM    FOR INSPECTOR GENERAL, FINANCE AND ACCOUNTING
                        DIRECTORATE, 400 ARMY NAVY DRIVE, ARLINGTON,
                        VA 22202-2884

    SUBJECT:     Audit Report on Internal Controls and Compliance With
                 Laws and Regulations for the Defense Commissary Agency
                 Financial Statements for FY 1997 (Project No. 7FB-
                 2042.01)

    Reference:     DoDIG Memorandum,.April   29, 1998, SAB

         Attached is the DeCA reply to recommendation 2 provided in
    subject report.  If you have any questions, please contact Mr.
    Ben Mike11 at (804) 734-8103.

                                          ,'9 WU     * ZdAk
                                          DONNA J. 8 ILLIS
                                          Executive Assistant   for Support

    Attachment:
    As Stated




                                     41
                  DEFENSE COMMISSARY AGENCY REPLY

SUBJECT:   Audit Report on Internal Controls and Compliance With
           Laws and Regulations for the Defense Commissary Agency
           Financial Statements for FY 1997 (Project No. 7FH-
           2042.01)

Recommendation 2. We recommend that the Director, Defense
Commissary Agency, clarify and standardize procedures related to
forwarding deposits and debit information to the Defense Finance
and Accounting Service Columbus Center in order to expedite the
reconciliation of deposits between commissaries and the Defense
Finance and Accounting Service Columbus Center.

DeCA Reply. DeCA concurs with this recommendation. Procedures
related to forwarding deposit and debit information will be
clarified in DeCA Directive 70-6. The target date for
publication of the revised directive is September 30, 1998.




                                42
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

F. Jay Lane
Salvatore D. Guli
David F. Vincent
Barbara A. Sauls
Jenniffer F. Wilson
Stephanie F. Mandel
stacey L. volis
Susanne B. Allen
Angela D. Clayton
